<html>
<title> - A CENTURY OF DENIAL: THE ARMENIAN GENOCIDE AND THE ONGOING QUEST FOR JUSTICE</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                   A CENTURY OF DENIAL: THE ARMENIAN


                        GENOCIDE AND THE ONGOING


                           QUEST FOR JUSTICE

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2015

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 114-1-3]
                             
                             
                             
                             
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                           
                             
                             
                             


                        Available via http://www.csce.gov
                   
                                   _____________
                           
                           
 
                         U.S. GOVERNMENT PUBLISHING OFFICE
 95-113 PDF                       WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001

                          
                           
                           
                           
                   
                   
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,     ROGER F. WICKER, Mississippi
Chairman                               Co-Chairman
ALCEE L. HASTINGS, Florida           BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama          JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas            RICHARD BURR, North Carolina
STEVE COHEN, Tennessee               JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida                TOM UDALL, New Mexico
RANDY HULTGREN, Illinois             SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
New York

                         

                     EXECUTIVE BRANCH COMMISSIONERS

                          Department of State
                         Department of Commerce
                         Department of Defense
                         
                         

                                  [ii]
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  


                   A CENTURY OF DENIAL: THE ARMENIAN
                        GENOCIDE AND THE ONGOING
                           QUEST FOR JUSTICE

                              ----------                              

                             March 18, 2015
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     4
Hon. Sheldon Whitehouse, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    14

                                MEMBERS

Hon. Brad Sherman (D-30), a Member of Congress from the State of 
  California.....................................................    20

                               WITNESSES

Dr. Taner Akcam, Professor of History, Robert Aram, Marianne 
  Kaloosdian and Stephen and Marian Mugar Chair in Armenian 
  Genocide Studies, Clark University.............................     6
Kenneth V. Hachikian, Chairman, Armenian National Committee of 
  America........................................................     8
Van Z. Krikorian, Co-Chairman, Board of Trustees of the Armenian 
  Assembly of America............................................    10
Dr. Elizabeth H. Prodromou, Visiting Associate Professor of 
  Conflict Resolution, The Fletcher School, Tufts University.....    15
Karine Shnorhokian, Representative, The Genocide Education 
  Project........................................................    21

                                 [iii]
                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    30
Prepared statement of Hon. Sheldon Whitehouse....................    32
Prepared statement of Dr. Taner Akcam............................    33
Prepared statement of Kenneth V. Hachikian.......................    35
Prepared statement of Van Z. Krikorian...........................    38
Prepared statement of Dr. Elizabeth H. Prodromou.................    46
Biography of Karine Shnorhokian..................................    51
Material for the Record..........................................    52


                   A CENTURY OF DENIAL: THE ARMENIAN



                        GENOCIDE AND THE ONGOING



                           QUEST FOR JUSTICE

                              ----------                              


                             April 23, 2015

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 1:40 p.m. in room 2175, Rayburn 
House Office Building, Washington, DC, Hon. Christopher H. 
Smith, Chairman, Commission on Security and Cooperation in 
Europe, presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Steve 
Cohen, Commissioner, Commission on Security and Cooperation in 
Europe; and Hon. Sheldon Whitehouse, Commissioner, Commission 
on Security and Cooperation in Europe.
    Members present: Hon. Brad Sherman (D-30), a Member of 
Congress from the State of California.
    Witnesses present:  Dr. Taner Akcam, Professor of History, 
Robert Aram, Marianne Kaloosdian and Stephen and Marian Mugar 
Chair in Armenian Genocide Studies, Clark University; Kenneth 
V. Hachikian, Chairman, Armenian National Committee of America; 
Van Z. Krikorian, Co-Chairman, Board of Trustees of the 
Armenian Assembly of America; Dr. Elizabeth H. Prodromou, 
Visiting Associate Professor of Conflict Resolution, The 
Fletcher School, Tufts University; and Karine Shnorhokian, 
Representative, The Genocide Education Project.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order and good 
afternoon to everybody. Welcome to our witnesses and everyone 
joining us for today's hearing marking 100 years since the 
start of the Armenian Genocide--one of the most terrible crimes 
of the 20th century.
    The Armenian Genocide is the only one of the genocides of 
the 20th century in which the nation that was decimated by 
genocide has been subjected to the ongoing outrage of a massive 
campaign of genocidal denial, openly sustained by state 
authority. This campaign of genocide denial is a slap in the 
face to the Armenian people, preventing reconciliation and 
healing. As Pope Francis said so eloquently at his Mass marking 
the 100th time period of the genocide, quote, ``Concealing or 
denying evil is like allowing a wound to keep bleeding without 
bandaging it.''
    In September 2000 I chaired the first congressional hearing 
on the Armenian Genocide. It was a four-hour hearing and the 
testimony I heard that day, and many accounts of the atrocities 
I have read in the articles and books over the years before and 
since, including the eyewitness account ``Ambassador 
Morgenthau's Story,'' have shocked me deeply. The facts were 
reported throughout the world as they were happening, 
corroborated immediately afterward by survivors and even some 
perpetrators, and have been amply documented by historians, 
including in a number of recent books.
    In 1915, there were about 2 million Armenians living in 
what was then the Ottoman Empire. They were living in a region 
that they had inhabited for 2,500 years. By 1923, well over 90 
percent of these Armenians had disappeared. Most of them, as 
many as 1.5 million, were dead. Some even say the estimates are 
higher. Most of them were death-marched into the desert or shot 
and in some cases raped and other unbelievable cruelties were 
meted out against men, women and children. The remainder, the 
remnant, was forced into exile.
    When the term genocide was invented in 1944 to describe the 
systematic destruction of an entire people, its author Raphael 
Lemkin explained the term by saying, quote, ``it was the sort 
of thing Hitler did to the Jews and the Turks did to the 
Armenians,'' close quote. Since the facts are so well-
established, this is not a hearing only to inquire into the 
events of 1915. Rather it's also a hearing on what has happened 
since and is still happening today--genocide denial.
    Sadly, the Turkish Government has driven this campaign of 
denial, and has done so over a course of decades using a 
variety of means to punish Turkish citizens who dared to 
acknowledge the crimes committed by the Ottoman government in 
1915 and thereafter. The Turkish Government has also threatened 
other countries to keep them from acknowledging the genocide. 
Ironically, it is only the Turkish Government's campaign of 
denial that obliges other countries to recognize the genocides 
officially. And the Turkish Government underwrites a 
disinformation campaign to confuse the historical record. It 
also tries to relativize the Ottoman government's crimes, 
sometimes by changing the subject to the wartime sufferings of 
Turks or crimes committed by individual Armenians.
    This is in no sense a hearing that's designed to be against 
Turkey. Rather, I consider it a hearing that supports the 
Turkish people. Today many people in Turkey are in the process 
of freeing themselves from the effects of decades of denialist 
propaganda by their government. Many already see through the 
official denialism and some oppose it openly, and some have 
paid a price. I want to support and express my admiration for 
these people--for their courage, and for their Turkish 
patriotism. They act, sometimes at grave personal risk to 
themselves, for the good of their country and out of love for 
their country. They are thought-leaders. And there are many 
signs of this.
    In recent weeks, in the lead up to the 100th anniversary of 
the genocide, there have been many deeply moving feature 
stories in the world press about Turks discovering their 
families' secret Armenian heritage, or seeking to connect with 
the Armenian aspects of Turkish history, or supporting efforts 
to rebuild Armenian churches which were also leveled and 
decimated, as our witnesses will attest to today. I'd like to 
insert one of those articles, ``Remembering the Armenian 
Genocide,'' by Victor Gaetan, into the hearing record. And 
without objection so ordered.
    No country is immune from evil. We all know that. All 
governments have been complicit at some point in their history 
in terrible crimes. And this certainly includes the United 
States--remember slavery. It also includes Germany. I want to 
urge the Turkish Government to take the path taken by Germany 
after World War II. And it was the right one.
    Germany started with open acknowledgment of the crimes of 
the Holocaust, and it built from there over a course of 
decades, establishing relationships with Jewish groups and 
Israel in which it demonstrated remorse and commitment to 
righting its wrongs, as far as it could. Now there is a strong 
German-Israeli friendship. And today Germany is one of the most 
respected countries in the world. That path is still open to 
the Turkish Government. And working to put Turkey on it will be 
the truest, deepest expression of Turkish patriotism.
    Finally, I must respond to President Obama. On Tuesday his 
aides met with Armenian leaders and made it clear once again he 
will not recognize the Armenian Genocide. That is to say, he 
will not use the word ``genocide.'' This is in direct 
contradiction to the promises that he made before becoming 
President.
    He said, and I would say very eloquently, in 2008, ``I also 
share with Armenian-Americans--so many of whom are descended 
from genocide survivors--a principled commitment to 
commemorating and ending genocide. That starts with 
acknowledging the tragic instances of genocide in world 
history. As a U.S. Senator, I have stood with the Armenian-
American community in calling for Turkey's acknowledgement of 
the Armenian Genocide. Two years ago, I criticized the 
Secretary of State for the firing of U.S. Ambassador to Armenia 
John Evans after he properly used the term ``genocide''--and 
he's here today--``to describe Turkey's slaughter of thousands 
of Armenians starting in 1915.''
    ``I shared with Secretary Condoleezza Rice my firmly held 
conviction that the Armenian Genocide is not an allegation, a 
personal opinion or a point of view, but rather a widely 
documented fact supported by an overwhelming body of historical 
evidence. The facts are undeniable. An official policy that 
calls on diplomats to distort the historical facts is an 
untenable policy. As a senator, I strongly support passage of 
the Armenian Genocide Resolution. And as President I will 
recognize the Armenian Genocide.''
    These are eloquent words that should echo today and ought 
to be expressed today. With Germany and the European Union 
lining up to do the right thing, our government needs to do 
likewise. At this point, according to the Congressional 
Research Service, the EU states listed as having recognized a 
genocide are France, Germany, Italy, Sweden, Belgium, the 
Netherlands, Lithuania, Poland, Slovakia, Greece, and Cyprus, 
and the Holy See. The European Parliament has also referred to 
the deaths of the Armenians as genocide. The non-EU states that 
have also taken this important step are Argentina, Canada, 
Chile, Lebanon, Russia, Switzerland, Uruguay, Vatican City, 
Venezuela. Sadly, after the President's powerful promise, we 
need that kind of statement to come very clearly and 
unambiguously from the United States.
    As mass atrocities unfold in Syria and Iraq, the U.S. needs 
the Turkish Government to engage constructively with its 
neighbors. The Turkish Government can do this more effectively 
after it honestly faces its own past. The President, I think, 
is missing an opportunity. I'd like to yield to my good friend 
and colleague, Commissioner Cohen, for any comments he might 
have.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you, Mr. Chair. I am a proud member of the 
Helsinki Commission and appreciate the chairman and his works. 
And I know this is a very special day for the Armenian people--
tomorrow is an anniversary. So it's appropriate that we have a 
hearing of this sort. I did make a request, and I don't know at 
what level it was determined, that in historical accuracy or at 
least in fairness in discussion and determination of what 
occurred that there should be historians presenting a different 
perspective.
    That was not granted. I can understand that, for this is a 
particularly sensitive moment to Armenian descendants and 
Armenian people. But at the same time, I think that if we're 
talking about having a determination of an historical event by 
a political body at a minimum we should have our ears open to 
all sides, regardless of what one might think the other side's 
perspective would be. To hear it would only be fair. I look 
forward to hearing from all the witnesses today. I wish we 
could have heard from the other witnesses.
    And I know that what happened some 100 years ago was 
atrocious. There were awful, awful, awful things that happened. 
How you define those events, how you determine what caused them 
should be the study of historians and scholars, not 
politicians. But if politicians are going to be involved in 
trying to make a determination, they should hear from all sides 
on the issue. I look forward to hearing from you and indeed 
understand your position and certainly wish that what happened 
100 years ago did not happen. And I yield back the balance of 
my time.
    Mr. Smith. Thank you, Commissioner Cohen. I just would note 
for the record that tomorrow marks the most solemn day of 
remembrance any nation can experience. Back in 2000 I put 
together a hearing. It was on September 14th, 2000. And it was 
all about the Armenian Genocide. We invited the Turks. We 
invited the Armenians. They sat at a table not unlike this one. 
And frankly, the denial--it was sophomoric, to say the least. 
And the arguments proffered by a distinguished member of the 
diplomatic corps for Turkey reminded me exactly of the 
Holocaust deniers.
    But I would be more than happy to welcome, on another day 
when the remembrance isn't so acute and so filled with pain and 
sorrow by the Armenian community, to invite the Turks amd the 
others, and I will ask them very, very difficult questions, as 
I did at that hearing. As a matter of fact, to take it one step 
further, right from the witness table the Turkish leader 
actually threatened the United States. He and I got into a very 
significant argument--a NATO ally threatening as he was, is 
very unprofessional.
    But I will give my promise that I would look forward to 
such a day to bring the Turkish side back. Nothing has changed. 
If anything, the historical record, particularly the archivists 
in countries, particularly in Europe and United States, the 
information has become even more one-sided, that this indeed 
was a genocide. But I will invite them back. But this is a 
remembrance day. And we have people who know this issue, have 
done brilliant scholarship on it. So I would--there is a 
uniqueness to this hearing to have such an array of individuals 
to speak truth to power, and that includes the United States 
and the White House.
    Mr. Cohen.
    Mr. Cohen. I thank you. And I understood that was the 
reason. And I think it's probably--it's appropriate because of 
the solemnity of the week and of the occasion. There are 
different issues than history that come into play on the 
determinations of whether or not to declare an event a genocide 
or not. Since I've been in Congress, I know some countries have 
and some feel politicians shouldn't be doing this, it should be 
somewhere else. But we had hoped that the Turkish Government 
would come to some rapprochement.
    And there were some protocols that we at one time thought 
were going to be pursued and that there would be some type of 
rapprochement and that never occurred. And Prime Minister 
Erdogan suggested I think last year he was going to set up a 
hearing with scholars, and that didn't occur. I wish that such 
a hearing could be set up because it has gotten more and more 
difficult to hear promises that don't get followed through and 
to hear threats both at our government and at the Pope, who is 
a wonderful gentleman. I yield back my time.
    Mr. Smith. Thank you very much, Commissioner Cohen.
    I'd like to now welcome our very distinguished panel, 
beginning first with Dr. Taner Akcam, professor of history and 
chair in Armenian Genocide Studies at Clark University. Dr. 
Akcam is the pre-eminent scholar on the Armenian Genocide and 
has published widely on the topic. Without objection, all of 
your full resumes will be made a part of the record and your 
very distinguished backgrounds.
    We'll then hear from Mr. Kenneth Hachikian, who's chairman 
of the Armenian National Committee of America, and Mr. Van 
Krikorian, who's co-chairman, board of trustees of the Armenian 
Assembly of America. We'll then hear from Dr. Elizabeth 
Prodromou, Visiting Associate Professor of Conflict Resolution, 
the Fletcher School, Tufts University. We'll then hear from 
Karine Shnorhokian, who is here as a representative of the 
Genocide Education Project and will speak to us about her 
family's experience as survivors of the genocide, and as an 
experienced activist in genocide education.
    Dr. Akcam, if you could begin.

 DR. TANER AKCAM, PROFESSOR OF HISTORY, ROBERT ARAM, MARIANNE 
   KALOOSDIAN AND STEPHEN AND MARIAN MUGAR CHAIR IN ARMENIAN 
               GENOCIDE STUDIES, CLARK UNIVERSITY

    Dr. Akcam. Thank you, Chairman Smith. Thank you very much 
for inviting me. I would like to begin by thanking you for 
giving me the opportunity to share my thoughts on the 
centennial commemoration of the Armenian Genocide.
    In 2000, when I first visited the United States for a 
series of lectures, my presence generated a great deal of 
suspicion among 
Armenian-Americans. Few could bring themselves to believe that 
a Turk would even acknowledge the Armenian Genocide. But after 
30 years of research on this subject matter, I have gained the 
confidence of the Armenian community, as well as that of my own 
countrymen.
    The Turkey that is best known today is one that is 
represented by a denialist government, but there is also 
another Turkey. And the citizens of that Turkey are ready to 
face their history. We Turks feel obligated to rectify the 
black stain upon us that was left by those who committed these 
crimes. At this very moment, in more than 25 cities from 
Istanbul to Van, people are not waiting for their government to 
recognize the genocide. Instead, they are blazing a new path--
one that allows them to discover their past. Our history does 
not simply consist of murderers. It is also a history of brave 
and righteous people who risked their lives to save thousands 
of Armenians. When we recognize and honor such persons, we help 
to create an environment that would encourage others who would 
act likewise.
    Why must we Turks, as well as the global community, 
recognize the Armenian Genocide? The answer, I would suggest to 
you, is very simple: If we agree to acknowledge and remember 
the Nazi-perpetrated Holocaust--and I'm confident that most of 
us feel that remembrance of those crimes is necessary--then we 
are equally obligated to acknowledge and remember the Armenian 
Genocide. I believe that this statement stands on its own 
merits, and that we should ask ourselves: Why is it that the 
question of recognizing the historicity of the Holocaust is not 
up for debate within political circles while the Armenian 
Genocide, despite its recognition within respectable academic 
circles, still is?
    Recognition of my country's historic wrongdoings is not a 
simple opinion or attitude on a past event. Instead, it is 
directly related the kind of society that we envision for our 
future. Dehumanization is the most important component of all 
mass atrocities. In order to be able to kill, perpetrators 
dehumanize their victims. Recognition is necessary to 
acknowledge the human dignity of victim. Without recognition, 
the consequent generations cannot properly mourn and heal. 
Mourning and healing are necessary for closure and can only 
come after the truth is acknowledged. If we fail to 
acknowledge, we fall into a trap that continues to support the 
perpetrators and their ultimate goals. After decades of 
denials, Armenians need to heal and to understand that the 
justice they seek will prevail. If we want reconciliation and 
the establishment of peace between Turkish and Armenian people, 
we have to acknowledge the truth. Without truth, there can't be 
a peace.
    If Turkey wishes to achieve a democratic, stable society 
and a vision for a better future, it needs to create an 
environment that is respectful of human rights. Confronting its 
past wrongdoing is a critical step towards this future. A 
hundred years ago, the Ottoman government had a flawed concept 
of national security. They viewed the Armenians and their 
demands for equality and social justice as a threat to the 
Ottoman state and society. Their solution to this problem was 
to target the Armenian people for extermination. Today, Turkish 
and Armenian children are taught, through textbooks published 
by Education Ministry in Turkey, that the Armenians continue to 
pose a threat to national security. These textbooks are steeped 
in false narratives about treacherous Armenians. This sounds 
unbelievable, but unfortunately it is the bare truth.
    What continues to trouble me is that the United States has 
not officially recognized the Armenian Genocide. The 
justification for their position remains the same: National 
security interests in which Turkey is a critical partner. The 
argument goes something like this: It would be pointless to 
anger Turkey and jeopardize American security interests for a 
moral issue that goes back 100 years. It is ironic that the 
words, ``national security,'' continue to haunt Armenian people 
even here in the United States.
    But juxtaposing national interest and morality as being 
mutually exclusive is just plain wrong. Any security policy in 
the Middle East that excludes morality in favor of expediency 
is likely, in the long run, to undermine national security. 
Historical injustices are not dead issues; the past has always 
been the present in the Middle East. Insecurity felt by 
different groups towards each other as a result of events that 
have occurred in history is one of the central problems in the 
region. Kurds, Arabs, Alawites, Armenians and other Christians 
in the regions perceive each other and Turkey through this 
flawed prism of history. If we want a real politic to be 
successful in the region, we have to integrate the 
acknowledgment of past wrongdoings into any national security 
policy and to stop using it as an excuse.
    Turkey's denialism of its past and making it as an 
essential part of its foreign policy is not simply a moral 
abomination. It represents a threat to democracy, stability and 
security not only in Turkey but in the region too. Turkey 
continues its denialist policies because until now it has not 
had to contend with serious external pressure to do otherwise. 
But there is other Turkey of which I spoke earlier. It is a 
Turkey that is determined to build a tolerant, democratic 
society ready to face up to the darker history of our country's 
past and to put an end to the denialist policy. All that is 
lacking is external pressure from international community.
    The United States has a choice, but if it continues to 
support a denialist regime it will endorse this historical 
mistake. The refusal to recognize past injustices is 
fundamentally undemocratic and contributes to the 
destabilization of Turkey and the region. How can the United 
States, which prides itself on its exceptionalism in supporting 
liberal values and human rights at home and across the world, 
justify a position at odds with its own democratic values? 
America should not uphold human rights only when it's 
expedient. The test of American exceptionalism is the 
commitment to persevere in upholding these principles even when 
it may seem costly or inconvenient to do so.
    By officially recognizing the Armenian Genocide, the United 
States could lend its moral and political weight to the cause 
of encouraging Turkey to come to terms with its history, to 
further embrace democratization and to contribute to its own 
future stability and that of the region. The citizens of my 
Turkey, the other Turkey, are waiting for you to join us in 
acknowledging the truth. Thank you very much.
    Mr. Smith. Doctor, thank you so very much for your courage 
in speaking out. I know you take risk by doing this. And I want 
you to know that we on this committee and Commission deeply 
admire how you have stepped up to speak out, and at potential 
cost to yourself. Thank you so very much for that.
    I'd like to now ask Mr. Hachikian if you could speak.

KENNETH V. HACHIKIAN, CHAIRMAN, ARMENIAN NATIONAL COMMITTEE OF 
                            AMERICA

    Mr. Hachikian. Commissioner Smith--Chairman Smith, excuse 
me, Commissioner Cohen, thank you for organizing today's 
Helsinki hearing and for your invitation to share our views on 
the ongoing costs and consequences of the Republic of Turkey's 
denial of the truth and obstruction of justice regarding the 
Armenian Genocide.
    We all know that the Armenian Genocide is settled history. 
No serious, objective historian questions the veracity of that 
characterization. We've seen debate around the false choices 
presented by Ankara's apologists, calling into question whether 
America can afford to speak the truth, as if we could ever 
advance our international interests by compromising our 
national values. Of course, we know that no foreign country 
deserves a veto over our human rights policy, a gag rule 
against our stand against genocide. We must never, ever 
outsource our nation's moral voice.
    Most recently, we have seen a cynical campaign by Turkey to 
silence America's moral voice by arguing against all evidence 
that the recognition of the Armenian Genocide represents an 
obstacle to improved Armenian-Turkish relations. That position 
is akin to saying that postwar Germany's establishment of 
relations with Israel would have been somehow better served by 
the world's silence about the Holocaust, or that the path to 
Hutu-Tutsi reconciliation rests upon a refusal to speak 
forthrightly about the realities of the Rwandan genocide.
    There are many aspects to the cost of Armenian Genocide 
denial--costs to both U.S. interests and American values as 
well as to international norms. I would like to address just a 
few of them today.
    There is, of course, first and foremost, the moral cost. As 
the Chairman indicated, no one has spoken more powerfully to 
this aspect than Pope Francis. Earlier this month, he offered a 
sermon during an Armenian Catholic rite in St. Peter's 
Basilica. The pontiff, consistent with the Vatican's long 
standing principled tradition of Armenian Genocide recognition, 
spoke honestly about this atrocity, telling the world that 
concealing or denying evil is like allowing a wound to keep 
bleeding without bandaging it. The cause of genocide 
prevention, a core moral imperative of our age, requires, as 
the Pope so powerfully stated, that we not engage in concealing 
or denying evil.
    A second cost of Armenian Genocide denial is the danger to 
at-risk populations around the world created by Turkey's 
precedent of a genocide openly committed and unapologetically 
denied. Perpetrators of subsequent crimes--from Hitler to al-
Bashir--have been emboldened by the international community's 
failure to confront genocide. Just this week, the president of 
Israel, President Rivlin, said, quote, ``The Nazis used the 
Armenian Genocide as something that gave them permission to 
bring the Holocaust into reality.'' There is no more compelling 
observation than that this week.
    A third cost of Armenian Genocide denial is the threat it 
represents to Armenians, a Christian nation with deep 
connections to the Western tradition and a long history of 
friendship with the American people. Very simply, Armenia 
cannot be safe as long as it is bordered by an over-armed, 
unrepentant perpetrator of genocide. Armenians cannot be secure 
as long as Turkish schoolchildren are taught that Armenians 
were traitors, the perpetrators were heroes, and the victims 
deserving of their fate.
    A fourth cost is the price the Turkish people pay in terms 
of their own nation's progress toward greater tolerance and 
pluralism. A Turkey that fully accepts responsibility for the 
Armenian Genocide would very likely be one that is on the road 
to rehabilitation into a post-genocidal state. Sadly, we have 
seen few official signs of progress on this front.
    And finally, a fifth cost is the destruction of the rich 
religious heritage of Anatolia, a cradle of the early Christian 
faith. As a result of these genocidal crimes, and Ankara's 
continued obstruction of justice, only a small fraction of the 
historic Christian presence in Anatolia remains today in modern 
Turkey. Estimates are that of the well over 2,000 Armenian 
churches which existed in the early 1900s, far fewer than 50 
are functioning today. Perhaps as few as 200 even remain 
standing. The rest have been ground into dust with the 
properties illegally confiscated by the government, and only a 
small fraction of the historic Armenian Christian population 
that once populated Anatolia remains today in modern Turkey to 
care for their cultural heritage.
    As an initial step, Turkey's return of the thousands of 
church properties it outright stole from Armenians, Assyrians, 
Greeks, Syriacs and other Christians prior to, during, and 
after the Armenian Genocide era would represent a meaningful 
move by the Turkish Government toward accepting its 
responsibility for a truthful and just resolution of this 
still-unpunished crime against humanity. It would, as well, 
mark progress for the cause of international religious freedom 
in a corner of the world sadly known not for its pluralism, but 
rather for the depths of its intolerance. We need no look 
further than ISIS to realize the challenges of religious 
intolerance.
    Finally, I must comment on President Obama's statement that 
will be coming out tomorrow. His ongoing failure to properly 
acknowledge the Armenian Genocide is nothing short of a moral 
disgrace and an insult to the victims of genocides worldwide. 
His failure to honor his word and his submission--and I'm 
saying submission--to Turkish blackmail is extraordinarily bad 
policy. He leaves the United States isolated, standing 
virtually alone with Turkey in the denialist camp. He leaves 
the United States open to ongoing blackmail from Turkey and any 
other country who can see the weakness of this administration's 
moral standing.
    And finally, it leaves no doubt, sadly, that this 
President's words, his solemn commitment, his considered 
promises are simply meaningless and open for reconsideration 
under pressure from foreign governments. Shame on you, 
President Obama. It is time for the United States and the rest 
of the world to stand up to Turkey's shameless blackmail and 
demand justice for the Armenians--not just for the Armenians, 
but for all of civilized mankind. Thank you.
    Mr. Smith. Thank you so much, Mr. Hachikian, for your 
testimony and your very strong and persuasive words. I'd like 
to now recognize Mr. Krikorian.

    VAN Z. KRIKORIAN, CO-CHAIRMAN, BOARD OF TRUSTEES OF THE 
                  ARMENIAN ASSEMBLY OF AMERICA

    Mr. Krikorian. Thank you, Chairman Smith and Commissioner 
Cohen. And thank you for agreeing to include my written 
statement in the record. It's extensive and it addresses some 
of the issues that denialists and people that would not have 
the United States use the correct term, Armenian Genocide, deal 
with. I want to start as I started in the written testimony 
though, with my sincere thanks to this Commission and this 
institution and Chairman Smith. My personal experience with the 
Helsinki Commission goes back to the late 1980s when Armenians 
were, again, at threat of Genocide by Azerbaijan, and when the 
threat was to eliminate the Nagorno-Karabakh problem by 
eliminating the Armenians. That threat still exists.
    I've been fortunate in my life as the grandson and 
descendent of genocide survivors, have had several honors. One 
of the honors that I had was to be part of the official U.S. 
delegation to the human rights meetings in Moscow, where we 
heard really the best of the United States standing up for 
human rights in the Soviet Union.
    This Commission's work on Nagorno-Karabakh, the 
independence of Armenia, in 2005 your hearings on religious 
liberty and religious situation of Christians and Armenians in 
Turkey were dramatic. And we hope that today's proceedings 
continue in that vein. The testimony and the facts that were 
submitted echo what Mr. Hachikian said regarding religious 
churches, monasteries, Armenian cultural heritage. And it's 
kind of sad that we're sitting here 10 years later, and while 
there's been some progress the disrespect that's been shown to 
our religion and to the Christian religion is still going on.
    I also at the start want to reflect on this idea that we 
should let historians decide. I think that, again as my 
colleague and friend Ken Hachikian said, historians have 
decided. It would be just as useful to have a commission of 
historians look at the Armenian Genocide as it would to have 
one re-examine whether the Earth is flat. The people that run 
around saying that the Moon landing is a hoax are probably more 
entitled.
    And for America and America's history, where our archives 
alone have 30,000 pages of documents detailing in the regions 
with photographs, with direct testimony from the perpetrators 
of the Armenian Genocide what their intent was and how brutal 
the extermination was, is beyond the pale. It is literally 
rewriting our history.
    In the late 1800s and the early 20th century The New York 
Times distinguished itself--distinguished itself by chronicling 
the Armenian Genocide--eyewitness reports, facts, all in the 
newspapers, all in the archives. But Tuesday's New York Times 
headline I think is one we're going to remember. Tuesday's New 
York Times headline says: ``White House Acknowledges Armenian 
Genocide, but Avoids the Term.'' It's absurd. And avoiding the 
term is fatal. It's fatal in the sense that we know that 
history repeats itself. And we know that avoiding the term 
empowers people who are going to commit this crime again.
    Now, President Obama has used the Armenian term for 
Armenian Genocide, Meds Yeghern, which I understand can be 
difficult to pronounce for some. He's described and condemned 
all of the events, provided a dictionary definition of the 
Armenian Genocide. He's called on Turkey to deal with its past 
honestly, as a clear implication that they have not dealt with 
their past honestly. He's referred back to his prior statements 
as a senator, where he explicitly and passionately used the 
term Armenian Genocide and criticized those who would not use 
it.
    But since his election as President, he's been misled by 
false promises and he's bowed to threats from the worst kind of 
people. This undercuts his credibility and, worst of all, it 
puts more lives at risk. When we saw that on the same day the 
United States Government--National Security Adviser Rice and 
Secretary Kerry--met with the Turkish foreign minister who made 
his annual--or made the annual trip here to talk about carrots 
and sticks and the same kind of sticks we heard about in 2000, 
and they put ISIL on the table, we knew what was coming. Turkey 
is ISIL's lifeline. There's no denying that either. And the 
United States, understandably, doesn't want to put American 
military at risk. But by continuing to bow to this kind of 
pressure, it just procrastinates and puts off the inevitable.
    Now, we feel pain at this time of year. We really do. Our 
relatives are not in marked graves in places where we can 
visit. We don't know where--my parents never knew her aunts and 
uncles. They didn't exist. They were gone. Those people lie in 
unmarked graves in what's now Turkey. That's painful. So when 
President Obama acknowledges but doesn't use the term, that 
just deepens the pain even more. We also feel sorry that the 
kind of courage that leaders who aspire to be world leaders 
isn't shown.
    But like other victim groups, and as part of our national 
character--and I say that in two senses; I was born in the 
United States and my parents were born in the United States. My 
wife's grandmother, who was affectionately called Betsy Ross 
because she was born in the United States, was also Armenian. 
We're more than resilient enough to rededicate ourselves to 
continuing the cause of preventing genocide because that's what 
we've inherited, and it doesn't seem to be going away.
    My written testimony includes just a brief amount of the 
legal record and the historical record. In fact, the United 
States has recognized the Armenian Genocide several times--
President Reagan in 1981, the United States Government in its 
formal submission to the International Court of Justice. And a 
brief summary of that is included in the written testimony. 
Today we're also announcing the opening of the Armenian 
Genocide Museum of America online--a virtual museum that people 
can go if they truly want to learn what happened and how to 
help.
    What I want to do with the remainder of my time though, is 
speak again from personal experience, because historical 
dispute over whether it was a genocide is gone. Yes, there was 
an advertisement in The Washington Post today referring to 
Bernard Lewis. Unfortunately, the advertisement did not 
acknowledge that in prior editions of the same book that they 
rely on, Bernard Lewis talked about the terrible holocaust in 
which one and a half million Armenians were slaughtered.
    It also omitted the fact that in a country like France, 
where they have laws against genocide denial, in 1995 Bernard 
Lewis was found guilty of genocide denial. We don't have those 
kinds of laws here because of our First Amendment, but in 
countries where they do and people have the opportunity not 
just to say things because they want to say them or because 
somebody's paying them to say them or because they're being 
threatened if they don't say them, they have to back up what 
they say.
    President Obama is going to be quoted extensively in these 
coming days, and not just because of the Pope's statement and 
the European Parliament's decision and Chancellor Merkel's and 
the rest of the statements that were referred to, not just 
because President Putin, with whom a lot of people have issues, 
has made the kind of statement we would have liked to see the 
President of United States make--and President Putin is in 
Armenia at the commemoration, where we wish President Obama 
was. We're going to read President Obama's quote that the 
Armenian Genocide is not an allegation, a personal opinion or a 
point of view, but rather a widely documented fact supported by 
an overwhelming body of historical evidence. The facts are 
undeniable.
    ``An official policy that calls on diplomats to distort the 
historical facts is an untenable policy.'' ``America 
deserves''-- and these are his words--``America deserves a 
leader who speaks truthfully about the Armenian Genocide and 
responds forcefully to all genocides.'' That's not the quote 
that I really want to use as the basis, though, for the rest of 
what I'm going to say.
    I thought President Obama spoke eloquently in his 2009 
inaugural address. And I think it reflects the sentiment that 
we hold--and not just we as Armenians, but all people of good 
will who want to see progress in this area--is that we seek a 
new way forward based on mutual interest and mutual respect. 
``To those leaders around the globe who seek to sow conflict or 
blame their society's ills on the West, know that your people 
will judge you on what you can build, not what you destroy. To 
those who cling to power through corruption and deceit and the 
silencing of dissent, know that you are on the wrong side of 
history, but that we will extend a hand to you if you are 
willing to unclench your fist.''
    Today the president of Turkey shows no respect. He sows 
conflict. He blames society's ills on the West. He is 
destructive. He clings to power through deceit. He silences 
dissent. He's on the wrong side of history in denying the 
Armenian Genocide and many other areas. How much would it take 
for President Erdogan to show respect for the unmarked graves 
of our ancestors and the unmarked graves of other Christians 
who were slaughtered during this period?
    Instead, he cynically scheduled a commemoration of the 
Battle of Gallipoli on April 24th, outside the usual date, just 
to divert countries from participating in the Armenian 
commemoration. And then, he had the gall to criticize the 
Armenians for choosing April 24th as their commemoration date. 
The truth is, we didn't choose April 24th. Mr. Erdogan's 
predecessors did when they decided to start the killing on that 
day. The president of Turkey has again threatened to expel the 
Armenians living in Turkey. Last year, he stated it's ugly to 
be called an Armenian.
    He conflated Muslim deaths during the war with no relation 
to Armenians with the deaths of Armenian victims--just as 
discredited deniers used to do in the early 1990s to claim 
mutual losses and no real victim group. In the city of Kars, an 
artist trying to promote Turkey-Armenian reconciliation put up 
a statute. In 2011, then-Prime Minister Erdogan had it torn 
down. Last month, thankfully, the court found for the artist 
and ordered President Erdogan to pay roughly $3,800 in damages.
    My testimony goes on--my written testimony goes on more and 
more about the bad faith that's being shown. But the truth is, 
as Professor Akcam has said, Armenians are willing to extend a 
hand if Turkey unclenches its fist. Armenia has had three 
presidents since 1991. Each has offered without condition to 
normalize relations with Turkey. In 2009, President Sargsyan 
took a bold and courageous step--and a lot of people didn't 
agree with at all--to normalize relations based on the 
protocols. After ratification, those agreements would have 
established diplomatic relations, reopened the border, and 
established mechanisms to resolve multiple issues between the 
countries, including the outstanding legal issues that need to 
be resolved. The protocols represented a breakthrough. Turkey 
didn't ratify them. Azerbaijan vetoed them.
    Now, to try to be brief and summarize, because I could go 
on, I want to speak from some other personal experience. After 
those 2000 hearings, in 2001 a Turkish-Armenian Reconciliation 
Commission was formed. And I participated in it actively. Our 
initial job was just to last one year and come up with joint 
recommendations to the governments. The genocide issue hung 
over our situation. The same ambassador who appeared before 
you, Chairman Smith, was on that commission.
    And he insisted that we have a legal hearing. And the 
International Center for Transitional Justice facilitated that. 
Ted Sorensen was on the panel, Alex Boraine, who had been the 
vice chairman of the South African Truth and Reconciliation 
Commission was on the panel. And we had a hearing. We had a 
hearing. The Turkish side brought their lawyers. They brought 
Ambassador Aktan. I actually had Samantha Power as my first 
witness. And she was eloquent and persuasive and authoritative. 
And we'll always appreciate that.
    They issued an opinion in 2003 that found the Armenian 
experience met all of the elements of genocide. And they made 
that finding not based on any disputed facts or disputed 
history, but essentially Turkish sources. In fact, if we are to 
look at history we should understand that the Turkish 
Government itself tried and convicted the leaders of the 
Armenian Genocide for the extermination of the Armenian people, 
and referred to the orders of the Central Committee, which 
included direct references to their intent and the plan to 
exterminate the Armenian people.
    That Turkish ambassador, Gunduz Aktan, as Professor Akcam 
noted, has passed away. And even though it was rare for us to 
agree, I can say that he earned a measure of respect from us, 
even though we disagreed on so much, because he made sure that 
that study was correctly translated in Turkish and had it 
published. He didn't want to do that, but he did it because he 
kept his word. When we look at President Erdogan today and we 
see not even close to that level of honor.
    I am going to skip to the end because I do understand that 
I have exceeded my time, and I appreciate it. We understand--
actually, we had another anecdote that had one incidence, in a 
commission where one of our Turkish colleagues looked at us and 
said: You don't know how badly it makes us feel to say that we 
committed genocide. And one of our Armenian colleagues looked 
back and him and said--it was former Armenian Foreign Minister 
Arzumanian--said, well, how do you think it makes us feel to 
have been genocided?
    Those kinds of exchanges have to continue. There needs to 
be support for that kind of dialogue. And that reconciliation 
is not going to take place unless there is recognition by the 
United States. We understand that nobody wants to be branded as 
a criminal, and we're not painting an entire race with that 
brush at all. And we know there were courageous Turks that 
saved Armenians.
    The lawyer Raphael Lemkin, who came up with the term 
Armenian Genocide, asked: ``Why is the killing of a million a 
lesser crime than the killing of a single individual?'' The 
philosopher George Santayana provides a response: ``Those who 
do not remember the past are condemned to repeat it.''
    I have a lot to thank you for, but I'm really going to 
thank you for letting me go over my time. And I'll conclude 
here, Chairman Smith. Thank you.
    Mr. Smith. Thank you so very, very much.
    We are joined by Senator Whitehouse, and I understand he 
has to be back to the Senate at about 3:00. Senator, if you'd 
like to make any comments or wait to the end?

 HON. SHELDON WHITEHOUSE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Whitehouse. Well, I'm very pleased to be here and have 
a chance to participate in this very important hearing. I 
congratulate my fellow members of the Helsinki Commission for 
holding it. Now is the right time to address this issue, and 
it's long overdue that the facts and truth of what took place a 
century ago now be recognized. It's not just a question of 
truth and it's not just a question of candor, it's also a 
question of this being a very important step to preventing 
things like this from happening again. So I think we all have a 
very common stake in this.
    If I may ask unanimous consent that a full statement be 
admitted for the record, I'll----
    Mr. Smith. Without objection, so ordered.
    Mr. Whitehouse. ----end my comments, then, and allow us to 
go back to this very learned and articulate panel.
    Mr. Smith. Thank you, Senator.
    Mr. Whitehouse. Thank you, Chairman.
    Mr. Smith. Without objection, your full statement will be 
made a part of the record.
    I'd like to now introduce Dr. Prodromou, if she could 
proceed.

  DR. ELIZABETH H. PRODROMOU, VISITING ASSOCIATE PROFESSOR OF 
   CONFLICT RESOLUTION, THE FLETCHER SCHOOL, TUFTS UNIVERSITY

    Dr. Prodromou. Mr. Chairman, members of the Commission, 
good afternoon. Thank you for the invitation to brief you here 
today on this very important subject. I respectfully request 
that my written comments, from which I'll draw for this 
testimony, be entered into the Congressional Record.
    Mr. Smith. Without objection, yours and all other 
statements, and--as well as any extraneous materials you'd like 
to add, articles or whatever, will be made a part of the 
record.
    Dr. Prodromou. Thank you.
    As a former Commissioner and Vice Chair of the U.S. 
Commission on International Religious Freedom and as a member 
of the Secretary of State's Advisory Group on Religion and U.S. 
Foreign Policy, I'm particularly heartened by this hearing, and 
I want to applaud you and to thank you for holding this hearing 
today.
    Given that the hearing aims to explore what the U.S. and 
other countries can do to help bring about recognition and 
eventually reconciliation, and given that this hearing also 
takes into account the importance and implications of U.S. 
recognition of the Armenian Genocide for U.S.-Turkey relations 
and more generally for the broader Transatlantic Alliance, I am 
going to focus my remarks on two general points.
    First, I'd like to talk a bit about the architecture of 
genocide denial and the ideology of denialism because their 
logic and operation are oftentimes overlooked in terms of the 
pernicious, insidious, corrosive effects that they have on the 
kinds of foundational freedoms to which this Commission is 
dedicated to protect and to uphold, as well as on the kinds of 
foundational freedoms that inform the Constitution of the 
United States of America and our foreign policy.
    And secondly, I'd like to consider the negative effects of 
genocide denial on Turkey's behavior and the corrosive 
consequences for U.S.-Turkey relations, as well as for Turkey's 
relationship with its Transatlantic partners.
    And then finally, I'll conclude with some brief thoughts 
about what the U.S. and other countries might do to end 
Turkey's policy of denialism, and therefore to facilitate a 
move towards a durable, sustainable Turkish-Armenian 
reconciliation.
    In terms of the architecture of genocide denial and the 
logic of denialism: As we all know, there's overwhelming, 
comprehensive and incontrovertible evidence, all of which is, 
in fact, available to the members of this Commission, that 
demonstrates the Ottoman Turkish government's deliberate 
intention to systematically exterminate 1.5 million Armenian 
Christians as well as between 1.2 and 1.5 million Assyrian and 
Greek Christians at the start of the 20th century. In a word, 
there was intentionality, there was a plan, and it was 
implemented, unfortunately with tragic efficiency in terms of 
outcome. This is what's called genocide. And there are endless 
eyewitness accounts, including those by survivors--by U.S. 
officials at the time, including U.S. Ambassador to the Ottoman 
Empire Henry Morgenthau, U.S. Consul General in Smyrna George 
Horto among them; memoirs and papers of Ottoman Turkish 
government perpetrators; and a rich corpus of archival, 
scholarly and legal research and materials--all of which name 
the Meds Yeghern, the ``Great Crime,'' for what it was, the 
crime of genocide.
    However, an entire industry has arisen, cutting across 
government and academic and media and political lobby lines, 
funded by the Turkish state and its supporters, that is 
premised on the denial of those facts on the ground. The denial 
industry has constructed an architecture of denial and an 
ideology of denialism that rests on very simple principles and 
logics, but which we oftentimes overlook and of which we are 
not aware--simply, to emphasize ambiguity and lack of clarity; 
to obfuscate, distort and politicize the empirical evidence, 
towards a simple goal--to create controversy over the veracity 
of the events that constituted the Armenian Genocide, to create 
interpretive disagreements, to create a question about 
interpretation, and eventually to use these controversies about 
interpretation and veracity to uphold the Turkish Government's 
unrelenting commitment to denial of the Armenian Genocide.
    So the ideology of denialism depends on focusing discussion 
and actions on the controversy rather than on the event. So 
it's the controversy and interpretative differences that are 
used to delegitimize those who claim that genocide occurred and 
to disregard the incontrovertible evidence.
    Furthermore, the ideology of genocide depends on using all 
manner of tactics--threats, warnings, demands, retribution, 
punishment--to censor and to silence and to control freedoms of 
conscience, thought, speech and the press. So again, claims of 
genocide are either eventually defeated by a focus on the 
controversy, or by attrition and exhaustion.
    Make no mistake: genocide denial is a totalitarian 
enterprise. And as Peter Balakian has pointed out, it's the 
continuation of genocide. Genocide denial is the final stage of 
genocide. Others have called this memoricide.
    Now, the genocide denial industry has been deployed by 
Turkey to pressure the United States into not recognizing the 
Armenian Genocide, to ensure that a congressional resolution on 
the Armenian Genocide is not passed, and to ensure that no 
sitting American President speaks out about the Armenian 
Genocide by using the ``G-word.'' And all of my fellow 
panelists have spoken to this.
    The working premise of the genocide denial approach has 
long been to warn the United States that recognition would lead 
to either the permanent rupture or permanent disrepair of U.S.
-Turkish relations, and therefore would undermine U.S. 
strategic interests and geostrategic priorities and the 
capacity of the Transatlantic Alliance to execute its strategic 
operations. Furthermore, Turkey has used genocide denial to 
argue that recognition by the U.S. would undermine forward 
movement in Turkey's domestic democratization process, and 
would weaken what was once referred to as, quote, ``a model for 
Muslim democracy'' or, quote, ``a secular democracy and NATO 
ally.''
    Now, I'd like to examine this claim here. In reality, by 
succumbing to the logic of the ideology of denial, U.S. 
policymakers have actually contributed to the emboldening of a 
politics of impunity and a culture of intolerance in both 
Turkey's domestic and foreign policy. And again, my fellow 
panelists have spoken about this.
    Let me take each point in order. How does genocide denial 
as an ideology and an architecture embolden the kinds of 
behaviors that are associated with violence and intolerance in 
Turkey? Well, let's take a look at the reality in Turkey when 
it comes to its Christian populations today.
    What we see is the near elimination of any Christian 
presence in Turkey today. Genocide, by the way, also includes 
annihilation of peoples and eradication of culture, so let me 
speak to that in terms of present-day Turkey. Christians in 
Turkey today comprise less than 1 percent of the total 
population, and their decline has been the result of combined 
policies of violence: pogroms, individual attacks, with direct 
support and indirect complicity of the Turkish state; 
perpetrators not being brought to justice; economic 
disenfranchisement, including a very arbitrary property rights 
regime and labor restrictions; as well as a policy of 
destruction of religious sites and conversion of religious 
sites into mosques. In Turkey today, there are approximately 
50,000 to 60,000 Armenian Orthodox Christians, 25,000 Assyrian 
Orthodox Christians, less than 2,000 Greek Orthodox Christians, 
and maybe 5,000 to 6,000 Roman Catholic and Protestant 
Christians.
    The logic of denialism messages to Turkey that there can be 
action with impunity against Christians and other minority 
populations in Turkey. And so the logic of denialism has, in 
fact, facilitated Turkey's ongoing behaviors towards its 
Christian minority populations and towards others--and towards 
other non-Musim and non-Christian minority populations in 
Turkey as well. The rise of crude anti-Semitism, for example, 
in Turkey has been consequent to the logic of denialism and the 
failure to acknowledge the Armenian Genocide--again, by 
messaging to Turkey that there is no accountability when it 
comes to either discourse or practical actions of violence, 
intolerance and bigotry.
    And we see ever-greater usage of terms like ``dhimmi'' and 
``gavour'' in Turkey today, ``dhimmi'' being a very pejorative 
term for non-Muslims and ``gavour'' being a term meaning 
``infidels.'' The emergence of that kind of language, as well 
as, as I said, the expansion of anti-Semitic language and 
practices in Turkey today, is directly related to the 
perpetuation of this logic of denialism, which messages that 
there is no accountability for a culture that uses bigotry and 
a politics that uses bigotry and intolerance.
    Furthermore, we see the emboldening of similar behaviors in 
Turkish foreign policy as a result of subscribing to this logic 
of denialism. Perhaps the most chilling case of the 
consequences of the denialist architecture has been in terms of 
Turkey's unfettered, systematic and near-complete religious 
cleansing in Turkish-
occupied Cyprus. Today, there are less than 400, mainly elderly 
Christians in Turkish-occupied Cyprus after 41 years of Turkish 
military occupation. More than 500 Armenian, Greek and Maronite 
churches, cemeteries and religious sites have been desecrated 
and demolished, converted into mosques, stables, public 
toilets, casinos, hotels, and military storage and 
administration sites. The same goes for the desecration of 
Jewish religious sites/cemeteries. The Armenian--one of the 
most important Armenian monasteries in 
Turkish-occupied Cyprus is finally being allowed to be used for 
picnics, not for religious worship. The Turkish occupation 
authorities will allow an occasional picnic and a sandwich, but 
not a Liturgy. This, again, grows out of the logic of 
denialism--again, no accountability, so applying the same kind 
of violations of human rights that were the genocide in terms 
of present-day foreign policy behaviors is what we see in this 
case.
    In terms of undermining democratization inside Turkey, here 
again we see the logic of denialism at work. The demonstrated 
willingness of civil society groups, attorneys, media, 
intellectuals, and average citizens to recognize and talk about 
the Armenian Genocide as a necessary step towards sustainable 
reconciliation inside Turkey and towards a broader Turkey-
Armenia normalization is, again, something that Dr. Akcam spoke 
about. However, by subscribing and supporting the logic of 
denialism, those openings and those possibilities are 
suffocated. The rollback in media freedoms today in Turkey--
press, social media such as Twitter and Facebook--as well as 
the rollback and the limitations on speech and conscience 
freedoms--for example, through a more expansive application of 
Article 301 of the Turkish Penal Code, by which insulting 
Turkishness now also includes Islamist blasphemy dimensions, 
but also speech about Armenian Genocide--this rollback in the 
last several years in Turkey has reached enormous proportions 
and has been widely reported. The perpetuation of Armenian 
Genocide denial inside Turkey falls within this framework of a 
culture of silencing and a totalitarian culture of regulation 
of language and thought.
    The same holds true for a culture of violence--for example, 
the assassination of Hrant Dink as well as the arbitrary arrest 
and imprisonment of journalists and human rights attorneys in 
Turkey. These all grow out of this messaging from the culture 
of denialism, the logic of denialism, that there is no 
accountability when these kinds of actions are undertaken.
    It's worth pointing out that, in terms of the argument of 
recognizing the Armenian Genocide as something that could 
undermine democracy in Turkey, in fact, this is something 
that's been wielded--this argument has been wielded regularly 
by the current AKP administration, but it's actually rooted in 
the previous Kemalist governments as well. However, in terms of 
the current moment, the approaching June 2015 elections in 
Turkey, President Erdogan is using genocide denial as part of 
his own political platform towards the goal of securing support 
from the nationalist right for the AKP's platform, and 
ultimately for obtaining a supermajority that would allow for 
an amendment to the Turkish constitution in order to move to a 
muscular presidential system. The stakes for denialism in this 
respect are directly related to what's happening in terms of 
Turkey's domestic politics today.
    And then, finally, in terms of emboldening Turkey to behave 
in foreign policy--in foreign policy terms that, again, are 
assuming that there will be no accountability--what we can see, 
for example, is that Turkey has ignored U.S. engagement and 
requests on issues related to U.N. sanctions on Iran, in terms 
of not selling or facilitating the sale of ISIS oil, as well as 
dealing with the closure of its border or, at the very least, 
not providing aid and sanctuary to al-Nusra and ISIS fighters 
along the Turkish border, and then finally U.S. requests that 
Turkey cease and desist from anti-Semitic provocation vis-a-vis 
Israel. Here, again, the Turkish Government's sense that it can 
behave with impunity and without any kind of accountability 
traces back to this logic and ideology of denialism.
    In short, there's both a moral and strategic imperative for 
the U.S. to change its position on denialism and on the denial 
of the Armenian Genocide. Continuing to support denialism is 
not in Turkey's interest as a democratic country and a country 
struggling now with its democratization process. It's 
(denialisms) not in the interest of the Transatlantic Alliance, 
supporting an alliance that is built on shared values as well 
as interests. And it's (denialism) not in the interest of 
ongoing efforts to bring about a full normalization of Turkey-
Armenia relations.
    By way of very brief conclusion, in terms of some things 
that can be done in order to facilitate a shift beyond, a move 
beyond and a rejection of denialism, first of all, the United 
States could follow the example of the European Parliament, 
could follow the example of Pope Francis, and it could follow 
the example of Turkish citizens who are willing to speak about 
and recognize the Armenian Genocide perpetrated by the Ottoman 
Empire. It could also--the United States could also ensure that 
the White House and our President names the genocide as a 
genocide.
    Number two, our government should show zero tolerance for 
denialism as an ideology of silencing and as a form of 
memoricide.
    Number three, the United States could work to empower 
Turkish civil society, those groups in Turkish civil society--
Armenian groups and others--Turkish journalists, Turkish 
members of the media, Turkish human rights activists, and 
particularly in the educational sphere that recognize the 
Armenian Genocide and are dedicated to recognition and 
reconciliation.
    Finally, the U.S. could support the creation of commissions 
to catalog, preserve and restore sites, and reject the 
conversion of churches into facilities that are not meant--for 
which they're not meant to be used. That includes mosques. A 
big test will be the great Cathedral of Hagia Sophia in 
Istanbul and what happens with that, but it includes mosques. 
It also includes, as I said, the Turkish authorities' use of 
Christian sites for public toilets, stables and concert halls.
    And then, finally, the U.S. can utilize the full range of 
interagency support--for example, this Commission, the U.S. 
Commission on International Religious Freedom, the IRF Office 
in the State Department, and the newly created White House 
Office of Global Religious Affairs--to ensure that, again, in 
terms of discourse and practices, denialism is rejected, and 
that instead recognition of the Armenian Genocide can be a 
necessary and first step to full reconciliation and 
normalization.
    Thank you.
    Mr. Smith. Thank you very much for your testimony.
    I will now go to Mrs. Shnorhokian.
    Mr. Sherman. Mr. Chairman?
    Mr. Smith. We are joined by Congressman Brad Sherman, and I 
understand you're on a tight schedule, too. So I'd love to 
yield to you right now.

 HON. BRAD SHERMAN (D-30), A MEMBER OF CONGRESS FROM THE STATE 
                         OF CALIFORNIA

    Mr. Sherman. Thank you.
    I apologize for being late here today, but I was on the 
floor of the House of Representatives doing a special order on 
the very topic of this hearing, joined by Mr. Royce, the chair 
of the Foreign Affairs Committee, and other members. It is very 
appropriate that we had that special order and that we have 
this hearing at this exact time, for it began a hundred years 
ago at this very hour, because it's April 23rd here in 
Washington, but it is very close to the midnight of April 24th 
in Istanbul. And just a hundred years ago to this very hour, 
the thugs were leaving their headquarters; the officials of 
the--of the Ottoman government were out to arrest and to kill 
650 leaders of the Armenian community of Istanbul, then the 
capital of the Ottoman Empire.
    We're here today, though, not just to commemorate a 
terrible wrong, for there are several terrible wrongs. When I 
meet--and I do, from time to time--to remember the Holocaust, 
there's one element that isn't there, and that is the need to 
combat governmental denial of the Holocaust. And that is why I 
want to commend the chair for holding these hearings, because 
we're here not just to commemorate but to correct. And we're 
not correcting a few crazy Holocaust deniers; we're here 
correcting a government of a major--of a major nation.
    This genocide denial's harm to Armenians is obvious, but 
there's also a great harm to America. How do we have a basis 
for world leadership if we kowtow? Have we--especially a 
country and a government that we've done so much for. Since 
World War II, we've given them 23 billion [dollars] in aid. We 
saved them from communism. We built and helped build the 
pipeline that brings them oil. We prevented an independent 
Kurdish state. We have been the loudest voice for Turkey to be 
allowed to enter the European Union. And then, with all that, 
they demand that we be accomplices in genocide denial? And even 
worse, we accede to that demand.
    And I want to thank the last witness. I've never heard it 
done so well, to explain how genocide denial harms not only 
Armenia and America, but harms the people of Turkey. There's 
nothing that we could do for the people of Turkey of greater 
significance than for the House of Representatives and the 
Senate to recognize the Armenian Genocide, because how can 
Turkey be a modern nation in the future if it is so busy 
denying its past? And who is going to trust Turkey? Would 
anyone trust a German Government that denied the Holocaust? 
Would the world be willing to follow an America that was 
engaged in some multinational, multibillion
-dollar slavery denial program? Turkey cannot be an effective 
ally or a trusted partner of any nation as long as it continues 
this denial. And as the professor just pointed out, it not only 
corrodes Turkey's position in the world, but corrodes the 
efforts to create real democracy in Turkey and to create an 
acceptance of religious minorities in Turkey.
    So, Mr. Chairman, I thank you for holding this hearing. I 
thank our witnesses for being here. And I look forward to the 
day when we do the best thing we could do for Turkey, and 
that's recognize the Armenian Genocide.
    Mr. Smith. Thank you very much, Mr. Sherman.
    I'd like to now yield to Ms. Shnorhokian.

  KARINE SHNORHOKIAN, REPRESENTATIVE, THE GENOCIDE EDUCATION 
                            PROJECT

    Ms. Shnorhokian. Chairman Smith and fellow Commissioners, 
thank you for organizing today's event and for the invitation. 
It's certainly humbling to be here.
    It is sentimental as I think back to six years ago almost 
to the day, where on April 22nd, 2009, at the age of 96, my 
husband's grandmother, an Armenian Genocide survivor, Alice 
Khachadoorian-Shnorhokian, arrived in Washington, D.C. one last 
time to meet with members of Congress, urging them to push 
forward for recognition of the Armenian Genocide. She 
considered herself one of the lucky ones, and felt a heavy 
burden on her shoulders to pursue justice for this cause.
    That morning, after making the journey from New Jersey, she 
arrived on the Hill in a gray-colored suit, the same suit she 
would be buried in two years later. Her white hair short and 
recently manicured, large round glasses, black cane and 
wheelchair, she was wheeled around office to office, telling 
her story to different members of Congress--her mind sharp and 
her memories lucid, a smile on her face with knowing her 
presence was making a difference.
    With her she carried two composition books older than she, 
entrusted to her by her relatives, who were midwives. The books 
were handwritten accounts of all the babies born in Aintab, 
Turkey during the turn of the 20th Century.
    In the black book, with its fading pages, and broken seams, 
search through the Armenian handwriting and navigate to the 
month of August 1912, you will find Grandma Alice's name there, 
born Wednesday, August 28, 1912. Alice's father, a respected 
and successful trade route merchant, provided for his family, 
which consisted of his wife and six children.
    When the order of the deportation of the Armenians arrived 
in 1915, Alice's family gathered whatever they could carry upon 
their donkey and began the marches, nearing closer and closer 
to the Syrian Desert. She and her brother, too young to endure 
the treacherous walk, were placed in the boxes on the sides of 
their donkey. As fate would have it, a high ranking military 
official and neighbor to Alice's family was shocked to see the 
family in Maskanah, the final stop before entering Der Zor. He 
obtained a permit, essentially saving the family.
    Attributing it to her faith in God, Alice, along with her 
family, survived the Armenian Genocide. From Aintab, they 
relocated to Allepo, Syria, and later to Beirut, Lebanon, where 
she received her education and studied as a midwife. She 
practiced midwifery for many years. She later married and 
relocated to the United States in 1980, where she served her 
Church and was proud of her three children, Ivan, Arpy Sarian, 
and Harout, and six grandchildren; Tina Volzer, Vahig 
Shnorhokia, Tsoleen Sarian, Lori Shnorhokia, Sevan Sarian, and 
Nora Shnorhokia.
    She continued to live in a world where the cycle of 
genocide continued. The traumas of what she endured visited her 
in her dreams, and Turkey's ongoing denial led her inability to 
move on. She had one simple ask, which was: ``Before my time 
passes, I am asking for justice of this great country and for 
the world to not forget the tragic suffering and terrible 
genocide of the Armenians. I am an American citizen, and I want 
my voice to be heard. I have guaranteed rights that were denied 
to my family 93 years ago.''
    On June 16th, 2011, she passed away. She never saw justice 
and never saw recognition, and she could never quite comprehend 
how America continuously caved in to the empty threats of the 
Turkish Government.
    The Turkish Government thinks that time will lead to faded 
memories. And as our last survivors walk this Earth, it is 
unfortunate, disheartening, and irresponsible that year after 
year broken promises and euphemisms are used to describe the 
Armenian Genocide by our own government.
    My own journey to speak out is fueled by my passion, 
education, and Turkey's ongoing denial. Reading Peter 
Balakian's book, ``Black Dog of Fate'' at the age of 15 ignited 
a flame within me. My high school--Glenbrook North High School 
in Northbrook, Illinois, and history teacher Mr. James 
McPherrin--gave me the platform to speak out and educate 
others. The topic angered my classmates. Their anger, however, 
stemmed from the fact that they felt ashamed and embarrassed 
that they did not know the past. They were angry that the 
history books did not contain this content.
    Denial of the genocide pushed me to educate America's 
youth. It has pushed me to pass legislation to teach Armenian 
Genocide and other genocides in schools. Through The Genocide 
Education Project, I have attended social studies conferences 
to give educators the tools they need to teach this difficult 
topic in their classroom, and recently led initiatives to 
develop a curriculum guide on the Near East Relief efforts 
during the time of the genocide to help those in need. This 
curriculum, entitled They Shall Not Perish, The Story of the 
Near East Relief was recently developed by a small subcommittee 
I spearheaded to allow for additional materials educators can 
use in their classrooms when teaching about genocide. I also 
proudly wear a pin honoring those efforts created during World 
War I. The pin is in red, white and blue and reads ``American 
Committee Relief In Near East Save A Life,'' with a shining 
star at center.
    Like Grandma Alice, I too studied nursing, graduating 
college with a Bachelors of Science in Nursing from Loyola 
University of Chicago over a decade ago. And at the age of 22, 
I worked as a nurse in an intensive care unit at Lutheran 
General Hospital in Park Ridge, Illinois. My work to pursue 
justice was not enough, however. It is not easy for an Armenian 
youth to grow up knowing that the truth is plagued by denial, 
hostility and threats. Knowing there was a greater good out 
there to pursue justice, I took a sabbatical from my nursing 
career. And I left to continue to educate students and 
teachers, build coalitions with other victims of genocide, meet 
with members of Congress to pursue genocide recognition, and 
much more. On April 22nd, I joined several hundred students at 
Pascack Valley High School in New Jersey and presented with a 
genocide survivor from Rwanda, Mr. Daniel Trust, as well as 
another advocate for justice, Ms. Lee Ann De Rues, who's a 
voice for victims who have suffered traumatic rape and violence 
with the ongoing conflicts in Congo.
    As descendants of survivors, it is our moral obligation to 
pursue justice for our survivors and end the cycle and denial 
of genocide. I by no means think I am the poster child for our 
cause because where this is just my story, multiply it by a 
hundred, a thousand or even 10,000, for that matter. And where 
we may face genocide denial in the schools or in Congress, 
Armenians in Armenia and Armenians here in the diaspora will 
never rest. The lights in our offices are always on. The media 
outlets will continue to be flooded. The telephone calls to 
members of Congress will never stop. And the education in 
schools will continue to anger and motivate students. The 
hashtags, the tweets, the social media campaigns will continue 
until justice prevails.
    Turkey failed. Turkey failed because, at the age of 96, 
Grandma Alice, a survivor, came to Washington, D.C. to fight 
for this cause, the same cause I am fighting for six years 
later and for however long it takes for Turkey to acknowledge 
the Armenian Genocide. Leadership that cannot speak the truth 
will come and go, and our adversaries will grow old and leave 
disgraceful legacies, but perhaps one day that one student I 
educated in world history will become the next world leader and 
remember that anger he or she felt for not knowing. They will 
speak the truth, because truth and justice will always prevail 
no matter what the cost and consequence will be.
    And to close, several years prior, while serving as a 
Senator, I asked President Obama about the Armenian Genocide. 
He openly acknowledged it as a genocide, and discussed Turkey's 
ongoing denial. It is sad to think how his views have changed, 
and how he has backed down from taking a moral stand. He 
continues to give in to these blanket threats from the Turkish 
Government. It is a disgrace as an American citizen that our 
own great Nation cannot acknowledge the truth.
    Thank you.
    Mr. Smith. Thank you for your very eloquent testimony.
    All of you, this has been a panel with very few parallels. 
I've been in Congress 35 years, and you have all made 
extraordinarily important points that I hope a wider audience 
will take under consideration.
    I do have a few questions, beginning first with, you know, 
as I talk to members--and this is decades long, but certainly 
in the last several years especially--there is that surface 
appeal argument that, after a century--now a century--that we 
just move on and acquiesce to the historical untruths 
promulgated by the Turkish Government and other opinion molders 
who are waging a campaign of disinformation. I suggest back to 
them, when I hear this from members and from parliamentarians--
you know, we meet regularly as head of delegation for the OSCE 
Parliamentary Assembly with members from around--from the 57 
countries that make up the OSCE, and it's amazing how that 
argument has had staying power, that just turn the page, it's a 
hundred years ago.
    The most immediate point to fire back, obviously, is that 
the memory of this festers. The families have suffered an agony 
that then is passed on from generation to generation because 
there has been no honest acceptance of these horrific deeds. 
But it is also--and I think your testimonies bring this out big 
time--a longer look at genocide denial, which is a calculated, 
premeditated, disingenuous policy that is truly designed to 
inculcate distrust and animosity towards the Armenians. I think 
that point has been made very strong. This is a current-day 
libel and slander against the Armenian people, and Armenians 
not just living in Armenia but everywhere else, and it is used 
quite adroitly by people like Erdogan to stir up those 
animosities.
    I'm planning--and it came out of just thinking, listening 
to all of you--a second hearing that will focus on the 
textbooks. You now, the--as you, Mr. Hachikian, pointed out, 
that the Turkish people pay--it was your fourth cost point--
because the young people are being taught a pack of lies that 
leads to a hatred and an animosity that then has real-world 
implications, particularly as they matriculate into government 
authorities themselves someday, or journalists, or whoever. So 
the textbooks, I think, need to be examined. You know, remember 
that famous song from Rodgers and Hammerstein's ``South 
Pacific,'' ``You've Got to be Taught,'' that the hatred has to 
be taught from generation to generation? Well, the textbooks 
are a conduit for that hatred, and I think we need to examine 
it, those textbooks.
    I did this with regards to UNRWA and the anti-Semitic 
diatribes that are contained within the UNRWA textbooks, which 
we--the United States Government--supply to the PLA in large 
measure. We're the biggest donor to UNRWA that there is. So I 
held a hearing and we had individuals read from the textbooks. 
None of us had ever had such a textbook in our hand or even 
seen one. And it was an absolute eye opener, and I think we 
need to look at and examine and scrutinize what are the young 
people of Turkey being taught by this campaign of slander and 
this campaign of hatred towards the Armenians.
    So that'll be our next hearing. I will announce that as 
soon as we pull that together. But I think it came right out of 
listening to all of you.
    You might want to speak to the next generation, how they're 
being--you know, how do you break that off? You know, we've 
seen with every ethnic or any other racial animosity anywhere 
in the world there's always this effort to reach the young 
minds and mold those minds and to fill it with hatred. So if 
you could speak to that.
    Secondly, the issue of what would U.S. recognition mean. 
And I really do thank Mr. Krikirian for what you did--
Krikorian, I should say--laying out some of those points about, 
in 1951, May 28th, U.S. written statement filed with the 
International Court of Justice regarding the U.N. Genocide 
Convention: ``The practice of genocide has occurred throughout 
human history. The Roman persecution of the Christians, the 
Turkish massacre of the Armenians, the extermination of 
millions of Jews/Poles by the Nazis are outstanding examples of 
the crime of genocide.'' So we got it right in 1951, and many 
other countries did as well. And Ronald Reagan, as you pointed 
out, when he pointed out in this proclamation, ``like the 
genocide of the Armenians before it and the genocide of the 
Cambodians that followed it,'' it seems to me there has been a 
seismic shift in policy, deliberate policy by the Turkish 
Government, to move more aggressively towards demonizing 
Armenians, and part of that effort is to--is to say the 
genocide never occurred.
    When we had the ambassador testify here, his phrase was 
``just use `tragedy.' '' Well, ``tragedy'' is if tomorrow or 
tonight I'm driving and I have a head-on collision and die. 
That's a tragedy--in a car. This was a premediated act of 
hatred and wanton killing, and that's what defines a genocide.
    So if you could speak to--and Turkey signed the Genocide 
Convention. They were one of first, Mark Milosch just reminded 
me, and I appreciate that. So if you could speak to that about 
the youth and then what the impact U.S. recognition would have.
    I am amazed that we are being bullied, in 2015. And again, 
I've said it, you've said it: the President couldn't have been 
more clear as a United States senator and as a candidate that 
he would do this. I'll never forget, after we had the hearing 
in 2000--2000, September 4th--14th, it was on H. Res. 398, 
which Rogan had introduced, which would have been--it was a 
very bipartisan effort--they would have recognized the 
genocide. In comes a conveyance from Sandy Berger, then-chief 
security council adviser to Clinton, and unfortunately our 
speaker, Dennis Hastert, said, oh, can't go forward with that, 
we're getting admonished if not even more from the 
administration not to go forward with this. Shame on us. We 
should do this and we should do it now. The President should do 
it still. There are hours left.
    If you could speak to those issues.
    Mr. Hachikian. Mr. Chairman, thank you for those thoughtful 
remarks.
    Very quickly, in response to your second issue, I believe 
U.S. recognition would isolate Turkey in a way that's 
absolutely necessary--because, after all, our ultimate goal is 
not recognition by the United States, it's recognition by 
Turkey, and to bring to justice for the crimes that were 
committed. U.S. recognition, however, would pressure Turkey, in 
addition to isolating them. It would cause them to understand 
that there's really no place they can turn in the world to hide 
behind. It would make it clear that the United States is not 
open to blackmail, which--you know, once you give into 
blackmail, you'll always give into blackmail. And it is 
astonishing that this administration doesn't understand that. 
And finally, it would--it would cause the United States to 
stand out as a clear voice of clarity on a moral issue of great 
importance and send a signal to other potential perpetrators of 
genocide that it cannot be tolerated. So thank you.
    Dr. Prodromou. Thank you for your enthusiasm and focus in 
terms of immediate follow up. It's really heartening.
    Regarding the isolation of Turkey, I think that 
recognition--the U.S. recognition wouldn't necessarily isolate 
Turkey. I think Turkey is already very isolated. I think what 
it would do in some ways, as you said, it would send a message 
that the United States has a zero-tolerance policy on these 
kinds of issues, and that extends well beyond Turkey. But also 
it would free up those in Turkey who would support a 
recognition, would support recognition. It will give them 
traction because, until now, the United States' willingness to 
bow its head to Turkish threats and Turkish condemnation has 
taken away that kind of traction from those in Turkey who might 
actually support recognition.
    And the other thing I would encourage is, in addition to 
the textbooks--which, yes, portray, not only in terms of public 
school textbooks but in terms of the textbooks that are--and 
the training that is used for the Turkish armed forces, portray 
Greeks, Armenians, Jews, Assyrians as security threats to 
Turkey. I would encourage you to think about those textbooks as 
well.
    And then finally, the issue of sites. That's where the 
United States can do a lot of work on its own, with its 
European allies and with the United Nations. I would encourage 
us to recognize that part of genocide is not only eradicating/
annihilating the people, it's eliminating any footprint of 
those people--any physical evidence that they ever once 
existed. And the obliteration of religious sites, cultural 
monuments in Turkey proper, and as I mentioned in 
Turkish-occupied Cyprus, has proceeded apace. And that's part 
of a deliberate strategy to either redesign history, convert 
those sites into different kinds of cultural spaces, or to 
eliminate them and, again, eliminate any evidence that those 
people once were.
    We talk about that--we talked about that when the Taliban 
was attacking religious sites in Afghanistan, Buddhist sites in 
Afghanistan. We're talking about it in terms of what ISIS is 
doing in Iraq. And we see the same thing happening in Turkey 
and Turkish-
occupied Cyprus. So sites can be preserved, they can be 
cataloged, and they can be repaired. And that's, again, a place 
where, in terms of working with our European allies and the 
United Nations, UNESCO in particular, we can do a lot better.
    Dr. Akcam. As a historian, I have to give short information 
on the political recognition of the genocide. We all think that 
Turkish Government's denied--has denied over the years. It was 
not true, actually. I strongly remind everybody that both 
Turkish Government in Ankara between 1918 and 1920 and the 
Ottoman government in Istanbul recognized the crimes, and they 
set up a military tribunal in Istanbul and they tried more than 
200 defendants, and there were death sentences against 16 
people and three were hanged. And I would really recommend to 
my government to follow up their founding fathers' footstep, 
Mustafa Kemal, who made a speech in Turkish parliament April 
1920 where he called Armenian massacres as a ``shameful act.'' 
So it is not enough, maybe, for today, but it is really a good 
beginning for Turkish Government to follow the footsteps of its 
founding fathers and call the event of 1915 a shameful act, and 
then carry out the consequences. Thank you.
    Mr. Krikorian. Thank you, Mr. Chairman. I think your idea 
about a review of textbooks and hearing in attention to that is 
brilliant.
    One of the things that we do at the Armenian National 
Institute is have a website. It gets enormous amounts of use. 
It lays out the facts and the documents and--no editorial 
content, just the facts and the documents. And among the top 
five countries where we get use from it is Turkey because we 
have people who want to see what the real truth of it is.
    With respect to textbooks and books in general, one of the 
more fascinating things that's happened as the world's opened 
up, not just through the Internet but communication and 
education, is that the grandson--the grandson of one of the 
actual architects of the Armenian Genocide--there were three 
primary architects of the Armenian Genocide. The grandson of 
one of them, Hasan Cemal, actually wrote a book called ``1915: 
The Armenian Genocide'' in Turkish, and he apologized. He did 
it based on his family's records and the rest of the history. 
It was an enormously brave thing to do. And it's pretty much--
not that we needed more dispositive documents or facts, but a 
person like that needs to get recognized, and a person like 
that needs to be protected.
    When we held meetings in Turkey as a Reconciliation 
Commission, we had a number of Turks that wanted to come to 
terms with their history. And they came to us and asked us, if 
they did, could we protect them? And we had to say: No, we 
can't. And if we can contribute to that, it would help a lot, 
too. Thank you.
    Mr. Smith. Before we close, is there anything else you 
would like to say to conclude?
    Well, I want to thank you again for your brilliant 
testimony--incisive, persuasive, and it leaves the Congress 
with much more that we ought to be doing. And I thank you for 
that as well.
    And again, we all mourn and pray for those who lost their 
lives, for their families. I, too, am a Christian, and believe 
strongly in the power of prayer. And my hope is--I think our 
collective hope is that through prayer and hard work this 
ongoing perpetuation of the hate that has been pushed by 
certain people in Turkey will not just be mitigated, but it 
will end. And it's only when there's a full recognition of a 
genocide--in this case, the Armenian Genocide--that that 
healing can begin.
    Yes, please, for a final word.
    Dr. Akcam. Maybe to close I would like to remind everybody 
about one important issue. After the assassination of Hrant 
Dink, my dear friend, in Istanbul, there is a growing civil 
society in Turkey. And these individuals, this civil society, 
is ready to face history. And I'm really hoping that the United 
States and the world community considers this growing civil 
society as the new Turkey. And this is the important part: 
Turkey does not only consist of a denialist government, but 
Turkish people are now on the streets and there is a new 
growing Turkey, and we should really recognize this new growing 
Turkey, and Hrant Dink also as Martin Luther King of Turkey. 
Thank you very much.
    Mr. Smith. Yes, and I just wanted to be clear that we have 
concerns for your safety as well, and the Commission will be 
doing whatever it can to ensure that the powers that be in 
Turkey know that.
    And let me also point out that when you mention civil 
society, in the past I have had numerous meetings in Ankara as 
well as hearings here in Washington on behalf of journalists, 
who have suffered disproportionately. As a matter of act, we 
had a hearing once where, unfortunately, the headline the next 
day was ``State Department Defends Ankara From the U.S. 
Congress.'' It was--unfortunately, the State Department rep 
went out of his way to, instead of saying a journalist should 
have unfettered right, you know, with due regard to libel laws, 
to print--and of course, if you write about the Armenian 
Genocide, you are put at risk.
    And I also wrote four laws on combating torture. The 
Torture Victims Relief Act, they're called, and there's four of 
them. And they helped torture victim relief centers, and there 
are those centers in Turkey. And I've gotten to know many 
people who have stood up and pushed back in those centers 
against the far-too-often utilization of torture methods. I 
have raised it personally with members of the parliament. I 
remember one time, in a bilateral meeting with a group of Turks 
in one of our parliamentary assemblies, after about an hour of 
back and forth, one of the top people said, you know, we do 
have a problem. [Chuckles.] So he at least admitted it. And you 
know, maybe that's the beginning of reform, when people finally 
realize there is a problem.
    But we have to accelerate our efforts going into the second 
century, now, of denial of the Armenian Genocide. And I can 
assure you this Commission and my subcommittee, which is the 
Global Human Rights Subcommittee, will look for ways. Any ideas 
you have, please pass them along and we will act.
    Hearing's adjourned.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Good afternoon and welcome to our witnesses and everyone joining us 
for today's hearing marking 100 years since the start of the Armenian 
genocide--one of the most terrible crimes of the twentieth century.
    The Armenian genocide is the only one of the genocides of the 
twentieth century in which the nation that was decimated by genocide 
has been subject to the ongoing outrage of a massive campaign of 
genocide denial, openly sustained by state authority. This campaign of 
genocide denial is a slap in the face to the Armenian people, 
preventing reconciliation and healing. As Pope Francis said at his Mass 
marking the centenary of the genocide, ``Concealing or denying evil is 
like allowing a wound to keep bleeding without bandaging it.''
    In September 2000 I chaired the first Congressional hearing on the 
Armenian genocide. It was a four-hour hearing and the testimony I heard 
that day, and many accounts of the atrocities I have read in the 
articles and books over the years, including the eyewitness account 
Ambassador Morgenthau's Story, have shocked me deeply.
    The facts were reported throughout the world as they were 
happening, corroborated immediately afterward by survivors and even 
some perpetrators, and have been amply documented by historians, 
including in a number of recent books.
    In 1915, there were about 2 million Armenians living in what was 
then the Ottoman Empire. They were living in a region that they 
inhabited for 2,500 years. By 1923, well over 90 percent of these 
Armenians had disappeared. Most of them, as many as 1.5 million, were 
dead--most of them death-marched into the desert or shot, and subject 
in some cases to rape or other unbelievable cruelties. The remainder 
had been forced into exile.
    When the term genocide was invented in 1944 to describe the 
systematic destruction of an entire people, its author Raphael Lemkin 
explained the term by saying it was ``the sort of thing Hitler did to 
the Jews and the Turks did to the Armenians.''
    Since the facts are so well-established, this is not a hearing only 
to inquire into the events of 1915. Rather it is also a hearing on what 
has happened since then, and is still happening today--genocide denial.
    Sadly, the Turkish Government has driven this campaign of denial, 
and has done so over a course of decades, using a variety of means to 
punish Turkish citizens who dared to acknowledge the crimes committed 
by the Ottoman government in 1915. The Turkish Government has also 
threatened other countries to keep them from acknowledging the 
genocide--ironically, it is only the Turkish Government's campaign of 
denial that obliges other countries to recognize the genocide. And the 
Turkish Government's crimes, sometimes by changing the subject to the 
wartime sufferings of Turks, or crimes committed by individual 
Armenians.
    This is in no sense a hearing against Turkey--rather I consider it 
a hearing that supports the Turkish people. Today many people in Turkey 
are in the process of freeing themselves from the effects of decades of 
denialist propaganda by their 
government. Many already see through the official denialism, and some 
oppose it openly.
    I want to support and express my admiration for these people--for 
their courage, for their Turkish patriotism. They act, sometimes at 
personal risk to themselves, for the good of their country and out of 
love of their country. They are `thought-leaders'--and there are many 
signs of this. In recent weeks, in the lead up to the centenary of the 
genocide, there have been many deeply moving feature stories in the 
world press about Turks discovering their families' secret Armenian 
heritage, or seeking to connect with the Armenian aspects of Turkish 
history, or supporting efforts to rebuild Armenian churches. I'd like 
to insert one of these articles, ``Remembering the Armenian Genocide,'' 
by Victor Gaetan, into the hearing record.
    No country is immune from evil, all governments have been complicit 
at some point in their histories in terrible crimes--and this certainly 
includes the United States. It includes Germany. I want to urge the 
Turkish government--the path taken by Germany after World War II was 
the right one. Germany started with open acknowledgment of the crimes 
of the Holocaust, and it built from there, over a course of decades 
establishing relationships with Jewish groups and Israel, in which it 
demonstrated remorse and a commitment to righting its wrongs, as far as 
it could. Now there is a strong German-Israeli friendship--and today 
Germany is one of the most respected countries in the world.
    That path is still open to the Turkish government, and working to 
put Turkey on it will be the truest, deepest expression of Turkish 
patriotism.
    Finally, I must respond to President Obama. On Tuesday his aides 
met with Armenian leaders and made it clear that once again he will not 
recognize the Armenian genocide--he will not use the word ``genocide'' 
tomorrow. This is in direct contradiction to the promises that he made 
before becoming President--and in order to become President.
    While a candidate, in 2008 the President made passionate statements 
in support of genocide recognition.

        I also share with Armenian Americans--so many of whom are 
        descended from genocide survivors--a principled commitment to 
        commemorating and ending genocide. That starts with 
        acknowledging the tragic instances of genocide in world 
        history. As a U.S. Senator, I have stood with the Armenian 
        American community in calling for Turkey's acknowledgement of 
        the Armenian Genocide. Two years ago, I criticized the 
        Secretary of State for the firing of U.S. Ambassador to 
        Armenia, John Evans, after he properly used the term 
        ``genocide'' to describe Turkey's slaughter of thousands of 
        Armenians starting in 1915. I shared with Secretary Rice my 
        firmly held conviction that the Armenian Genocide is not an 
        allegation, a personal opinion, or a point of view, but rather 
        a widely documented fact supported by an overwhelming body of 
        historical evidence. The facts are undeniable. An official 
        policy that calls on diplomats to distort the historical facts 
        is an untenable policy. As a Senator, I strongly support 
        passage of the Armenian Genocide Resolution (H.Res.106 and 
        S.Res.106), and as President I will recognize the Armenian 
        Genocide.

    These are beautiful words which echo hollowly today. The 
President's abandonment of this commitment is unconscionable and 
cynical.
    With Germany and the EU lining up to do the right thing, our 
government needs to do likewise. At this point, according the 
Congressional Research Service, the EU states listed as having 
recognized a genocide are France, Germany, Italy, Sweden, Belgium, the 
Netherlands, Lithuania, Poland, Slovakia, Greece, and Cyprus, and the 
Holy See. The European Parliament has also referred to the deaths as 
genocide. The non-EU states are Argentina, Canada, Chile, Lebanon, 
Russia, Switzerland, Uruguay, Vatican City, and Venezuela. Sadly, after 
the President's powerful promise, he is following, not leading--or 
rather, we are not even following.
    As mass atrocities unfold in Syria and Iraq, the U.S. needs the 
Turkish Government to engage constructively with its neighbors. The 
Turkish Government can do this much more effectively after it honestly 
faces its own past--the President is missing an opportunity to move 
Turkey toward this path.

Prepared Statement of Hon. Sheldon Whitehouse, Commissioner, Commission 
                 on Security and Cooperation in Europe

    On April 24, 1915, the Ottomans rounded up and killed a group of 
Armenia's best and brightest, marking the beginning of what historians 
now recognize as a wider plan of eradication. Nearly 1.5 million 
Armenians were killed, in massacres and in forced marches into the 
Syrian Desert. Another half million Armenians were driven from their 
ancient homeland.
    The slaughter of innocent Armenians was genocide, plain and simple. 
Indeed, our modern term ``genocide'' was first coined in the 1940s to 
describe both the Jewish Holocaust and the plight of the Armenians 
under Ottoman persecution in World War I.
    Theodore Roosevelt called the Armenian Genocide the ``greatest 
crime'' of the Great War. And perhaps prophetically, he wrote in 1918 
that the failure to honestly account for the perpetration of that crime 
would mean that ``all talk of guaranteeing the future peace of the 
world is mischievous nonsense.''
    Words matter. The historical record matters. I believe that by 
properly accounting for crimes against humanity we stand a better 
chance of preventing them in the future.
    His Holiness Pope Francis, known for his unwavering sympathy for 
victims of suffering, recently acknowledged the Armenian genocide, 
noting that ``Concealing or denying evil is like allowing a wound to 
keep bleeding without bandaging it.''
    Today we gather to seek an honest appraisal of a painful past.
    It is this terrible chapter, more than any other single event, that 
led to the Armenian diaspora, including in the United States and my 
home state of Rhode Island.
    I am proud to call myself a friend of the Armenian community in 
Rhode Island and in the United States. Over the years, I've had the 
pleasure of being welcomed into the community, and for that I am 
grateful.
    Senator Jack Reed, too, is a great friend of the Armenian 
community. He has worked for years to elevate the issues that are most 
dear to the Republic of Armenia and to the Armenian-American community 
in Congress.
    When I first came to the Senate in 2007, one of the first bills I 
cosponsored-along with Jack Reed-was the resolution calling on the 
President to ensure that the foreign policy of the United States 
appropriately reflects the realities of the Armenian Genocide. It was a 
privilege to do so. And I have signed onto similar legislation in every 
session of Congress since then.
    To this day, too many people are unaware of this tragedy, due in 
part to the unwillingness of some to call it what it was. This solemn 
recognition is important not only to so many Armenians in Rhode Island 
and throughout the world, but to our human obligation to the truth.

                 Prepared Statement of Dr. Taner Akcam

    I would like to begin by thanking you for giving me the opportunity 
to share my thoughts on the centennial commemoration of the Armenian 
genocide. In 2000, when I first visited the United States for a series 
of lectures, my presence generated a great deal of suspicion among 
Armenian-Americans. Few could bring themselves to believe that a Turk 
would even acknowledge the Armenian genocide. In fact, some even 
believed I was a spy working for the Turkish government. But, after 
thirty years of research on this subject matter, I have gained the 
confidence of the Armenian community, as well as that of my own 
countrymen.
    The Turkey that is best known today is one that is represented by 
an aggressive, denialist government. But there is also another Turkey, 
and the citizens of that Turkey are ready to face their history. We 
Turks feel obligated to rectify the black stain upon us and upon our 
honor that was left by those who committed these crimes. At this very 
moment, in more than 25 cities from Istanbul to Van, people are not 
waiting for their government to recognize the genocide. Instead, they 
are blazing a new path; one that allows them to discover their past. 
Our history does not simply consist of murderers. It is also a history 
of brave and righteous people who risked their lives to save thousands 
of Armenians. When we recognize and honor such persons, we help to 
create and environment that would encourage others who would act 
likewise.
    Why must we Turks, as well as the global community, recognize the 
Armenian genocide? The answer, I would suggest to you, is very simple: 
If we agree to acknowledge and remember the Nazi-perpetrated 
Holocaust--and I am confident that most of us feel that remembrance of 
those crimes is necessary--then we are equally obligated to acknowledge 
and remember the Armenian genocide. I believe that this statement 
stands on its own merits and that we should ask ourselves: Why is it 
that the question of recognizing the historicity of the Holocaust is 
not up for debate within political circles, while the Armenian 
genocide--despite its recognition within respectable academic circles--
still is?
    Recognition of my country's historic wrong doings is not a simple 
opinion or attitude on a past event--instead is directly related the 
kind of society that we envision for our future. Dehumanization is the 
most important component of all mass atrocities. In order to be able to 
kill, perpetrators dehumanize their victim. Recognition is necessary to 
acknowledge the human dignity of victim! Without recognition the 
consequent generations cannot be properly mourn and heal. Mourning and 
healing are necessary for closure and can only come after the truth is 
acknowledged. If we fail to acknowledge, we fall into a trap that 
continues to support the perpetrators and their ultimate goals. After 
decades of denials, Armenians need to heal and to understand that the 
justice they seek will prevail. If we want reconciliation and establish 
peace between Turks and Armenians we have to acknowledge the truth! 
Without truth, there cannot be peace.
    If Turkey wishes to achieve a democratic, stabile society and a 
vision for a better future, it needs to create and environment that is 
respectful of human rights. Confronting its past wrongdoings is 
critical step towards this future. A hundred years ago, the Ottoman 
government had a flawed concept of national security. They viewed the 
Armenians and their demands for equality and social justice as a threat 
to the Ottoman state and society. Their solution to this problem was to 
target the Armenian people for extermination. Today, Turkish and 
Armenian children are taught, through textbooks published by the 
Education Ministry, that the Armenians continue to pose a threat to 
national security. These textbooks are steeped in false narratives 
about ``treacherous Armenians.'' This sounds unbelievable but 
unfortunately it is the bare truth.
    What continues to trouble me is that the U.S. has not officially 
recognized the Armenian genocide. The justification for their position 
remains the same: National security interests in which Turkey is a 
critical partner. The argument goes something like this: It would be 
pointless to anger Turkey and to jeopardize American security interests 
for a moral issue that goes back 100 years. It is ironic that the 
words, `national security', continue to haunt Armenian people even here 
in the United States.
    But juxtaposing ``national interest'' and ``morality'' as being 
mutually exclusive is just plain wrong. Any security policy in the 
Middle East that excludes morality in favor of expediency is likely, in 
the long run, to undermine national security. Historical injustices are 
not dead issues; the past has always been the present in the Middle 
East. Insecurity felt by different groups towards each other as a 
result of events that have occurred in history is one of the central 
problems in the region. Kurds, Arabs, Alevis, Armenians and other 
Christians in the regions perceive each other and Turkey through this 
flawed prism of history. If we want a real politic to be successful in 
the region we have integrate the acknowledgment of past wrong doings 
into any national security policy and to stop using it as an excuse.
    Turkey's denialism of its past and making it an essential part of 
its foreign policy is not simply a moral abomination; it represents a 
threat to democracy, stability and security, not only in Turkey but in 
the region too. Turkey continues its denialist policies because, until 
now, it has not had to contend with serious external pressure to do 
otherwise. But there is this ``other Turkey'' of which I spoke earlier. 
It is a Turkey that is determined to build a tolerant, democratic 
society; ready to face up to the darker history of our country's past 
and put an end to the denialist policies. All that is lacking is 
external pressure from international community.
    The United States has a choice: but if it continues to support a 
denialist regime, it will endorse this historical mistake. The refusal 
to recognize past injustices is fundamentally undemocratic and 
contributes to the destabilization of Turkey and the region. How can 
the United States, which prides itself on its exceptionalism in 
supporting liberal values and human rights at home and across the 
world, justify a position at odds with its own democratic values? 
America should not uphold human rights only when it is expedient. The 
test of American exceptionalism is the commitment to persevere in 
upholding these principles even when it may seem costly or inconvenient 
to do so.
    By officially recognizing the Armenian genocide, the United States 
could lend its moral and political weight to the cause of encouraging 
Turkey to come to terms with its history, to further embrace 
democratization, and to contribute to its own future stability and that 
of the region. The citizens of my Turkey, the ``other Turkey,'' are 
waiting for you to join us in acknowledging the truth.

    Sociologist and historian Taner Akcam holds the Robert Aram & 
Marianne Kaloosdian and Stephen & Marian Mugar Endowed Chair of 
Armenian Genocide Studies at Clark University. Akcam grew up in Turkey, 
where he was imprisoned for editing a political publication and was 
subsequently adopted as a prisoner of conscience by Amnesty 
International in 1976. Akcam later received political asylum in 
Germany. In 1988 Akcam started working as a Research Scientist in 
Sociology at the Hamburg Institute for Social Research.
    In 1995 he received his doctorate from the University of Hanover 
with a dissertation on The Turkish National Movement and the Armenian 
Genocide Against the Background of the Military Tribunals in Istanbul 
Between 1919 and 1922. Akcam came to the US in 2000 as a visiting 
scholar and worked first at the University of Michigan, Dearborn and at 
the University of Minnesota thereafter. He has been working at Clark 
University since 2008. Akcam is widely recognized as one of the first 
Turkish scholars to write extensively on the Ottoman-Turkish Genocide 
of the Armenians in the early 20th century.
    He is the author of more than ten scholarly works of history and 
sociology, as well as numerous articles in Turkish, German, and 
English. His most known books are ``A Shameful Act: The Armenian 
Genocide and the Question of Turkish Responsibility'' (Metropolitan 
Books, 2006, received the 2007 Minnesota Book Award for General 
Nonfiction) and ``Young Turks' Crime Against Humanity: The Armenian 
Genocide and Ethnic Cleansing in the Ottoman Empire,'' Princeton 
University Press, 2012 (awarded in 2013 Hourani Book Prize of The 
Middle East Studies Association; and selected as one of Foreign 
Affairs` Best Books on the Middle East for 2012). Akcam's forthcoming 
book is ``The Sprit of the Laws; The Plunder of Wealth in the Armenian 
Genocide'' (coauthored with Umit Kurt, Berghahn Books 2015).

               Prepared Statement of Kenneth V. Hachikian

    Chairman Smith, Co-Chairman Wicker, and Commissioners, thank you 
for organizing today's Helsinki Commission hearing and for your 
invitation to share our views on the ongoing costs and consequences of 
the Republic of Turkey's denial of the truth and obstruction of justice 
regarding the Armenian Genocide.
    It is a tribute to the Commission that its leaders have chosen to 
title today's hearing: ``A Century of Denial: The Armenian Genocide and 
the Ongoing Quest for Justice.'' For that is the essential matter at 
hand.
    Far too often, over the past several decades, under Turkey's arm-
twisting here in Washington, DC, official discussions of the Armenian 
Genocide were framed in denialist terms, on the basis of Ankara's 
artificially contrived ``debate'' about whether there was an Armenian 
Genocide. Of course we all know that the Armenian Genocide is settled 
history.
    We have also seen debate around the false choices presented by 
Ankara's apologists, calling into question whether America can afford 
to speak the truth, as if we could ever advance our international 
interests by compromising our national values. Of course, we know that 
no foreign country deserves a veto over our human rights policy, a gag-
rule against our stand against genocide. We must never, ever outsource 
our nation's moral voice.
    Most recently, we have seen a cynical campaign by Turkey to silence 
America's moral voice by arguing--against all evidence--that the 
recognition of the Armenian Genocide represents an obstacle to improved 
Armenian-Turkish relations. That position is akin to saying that post-
war Germany's establishment of relations with Israel would have been 
somehow better served by the world's silence about the Holocaust. Or 
that the path to Hutu-Tutsi reconciliation rests upon a refusal to 
speak forthrightly about the realities of the Rwandan Genocide.
    The real open questions--the ones deserving of our attention--are 
whether the direct consequences of this genocide, which have to date 
all fallen upon the Armenian nation, will--as they should--also be 
shared by the state and society that have benefited so greatly from the 
fruits of this crime; and, whether the rightful resolution of this 
wrong can--as it must--serve as the fundamental basis for a true 
Armenian-Turkish reconciliation and an enduring regional peace. These 
are the real questions.
    The fact is that, a century after 1915, Turkey's denial of truth 
and justice for the Armenian Genocide remains the central issue between 
Turks and Armenians, the one that must be openly acknowledged, honestly 
discussed, and fairly resolved for there to be real, sustained progress 
in relations between these two nations.
    There are many aspects to the costs of Armenian Genocide denial--
costs to both U.S. interests and American values as well as to 
international norms. I would like to address just a few of them today.
    There is, of course, first and foremost, the moral cost.
    No one has spoken more powerfully to this aspect than Pope Francis. 
Earlier this month, he offered a sermon during an Armenian Catholic 
rite in St. Peter's Basilica. The Pontiff, consistent with the 
Vatican's long standing principled tradition of Armenian Genocide 
recognition, spoke honestly about this atrocity, telling the world that 
``Concealing or denying evil is like allowing a wound to keep bleeding 
without bandaging it.''
    These powerful words by Pope Francis reflect the values of every 
faith's tradition, every nation's code of morality, every civilized 
culture's concept of justice. These principles are manifested in the UN 
Convention on the Prevention and Punishment of Genocide, the life's 
work of Raphael Lemkin, the Polish Jewish lawyer who cited the Armenian 
massacres as a primary driver of his coining of the term ``genocide'' 
and his efforts to build a global consensus around this landmark 
international treaty.
    The cause of genocide prevention, a core moral imperative of our 
age, requires, as the Pope so powerfully stated, that we not engage in 
``concealing or denying evil.''
    A second cost of Armenian Genocide denial is the danger to at-risk 
populations around the world created by Turkey's precedent of a 
genocide openly committed and unapologetically denied. Perpetrators of 
subsequent crimes--from Hitler to Al-Bashir--have been emboldened by 
the international community's failure to confront genocide. Our United 
Nation's Ambassador, Samantha Power, has properly called this 
phenomenon the "Problem from Hell."
    If we are to end the cycle of genocide--and no one is more 
committed to this cause than our community--we must elevate America's 
and all the world's response to genocide from a political calculation 
to a moral imperative.
    A third cost of Armenian Genocide denial is the threat it 
represents to Armenians, a Christian nation with deep connections to 
the Western tradition and a long history of friendship with the 
American people. Very simply, Armenia cannot be safe as long as it is 
bordered by an over-armed and unrepentant perpetrator of genocide. 
Armenians cannot be secure as long as Turkish schoolchildren are taught 
that Armenians were traitors, the perpetrators were heroes, and the 
victims deserving of their fate.
    A fourth cost is the price the Turkish people pay, in terms of 
their own nation's progress toward greater tolerance and pluralism. A 
Turkey that fully accepts responsibility for the Armenian Genocide 
would very likely be one that is on the road to rehabilitation into a 
post-genocidal state. Sadly, we have seen few official signs of 
progress on this front. President Erdogan has doubled down on denial 
while Armenians in Turkey are regularly threatened with renewed 
deportations. The vast majority of the remaining Christian heritage of 
Anatolia is being systematically erased. While many of Turkey's most 
popular films and books scapegoat and celebrate the destruction of 
``treasonous'' minorities, there are encouraging signs of a small but 
growing civil society movement in favor of ending Turkey's denials. In 
fact, tomorrow, groups of brave Turkish citizens will be joined by 
Armenians from around the world--at the risk of prosecution or worse--
to call for a just resolution of the Armenian Genocide. We should 
encourage and stand with these principled voices.
    And finally, a fifth cost is the destruction of the rich religious 
heritage of Anatolia, a cradle of the early Christian faith.
    As the esteemed leaders and members of the Commission know, 
Armenians, Greeks, Assyrians, Pontians, and Arameans (Syriacs) long 
lived in what is present-day Turkey. It is in appreciation of your 
understanding of this rich history--and an awareness of the vast 
desecration being visited today upon Christian holy sites by violent 
extremists--that I would like to close with a brief review of how this 
aspect relates to Turkey's denials.
    Thousands of years before the establishment of the Ottoman Empire, 
these nations gave birth to great civilizations and established a rich 
civic, religious, and cultural heritage. They were, upon these biblical 
lands, among the first Christians, dating back to the travels through 
Anatolia of the Apostles, Thaddeus and Bartholomew. Armenia, in 301 
A.D., became the first nation to adopt Christianity as a state 
religion.
    Present-day Turkey is home to many of the most important centers of 
early Christianity--most notably Nicaea, Ephesus, Chalcedon, and 
Constantinople, containing a rich legacy of Christian heritage, 
including thousands of religious sites and properties.
    Ottoman Turkey's campaign of genocide against its Armenian and 
other Christian subjects, in addition to murdering over 2,000,000 
Christians and exiling of hundreds of thousands of others from their 
homelands of thousands of years, also involved the systematic 
destruction of churches and religious sites, illegal expropriation of 
properties, discriminatory policies, restrictions on worship, and other 
efforts to suppress and ultimately erase the Christian heritage of 
these lands.
    As a result of these crimes--and Ankara's continued obstruction of 
justice--only a small fraction of the historic Christian presence in 
Anatolia remains today in modern Turkey. Estimates are that of the well 
over 2,000 Armenian churches, which existed in the early 1900's, far 
fewer than 50 are functioning today. Perhaps as few as 200 even remain 
standing today. The rest have been ground into dust with the properties 
illegally confiscated by the government. And, only a small fraction of 
the historic Christian population that once populated Anatolia remains 
today in modern Turkey to care for their cultural heritage.
    As an initial step, Turkey's return of the thousands of church 
properties it outright stole from Armenians, Assyrians, Greeks, 
Syriacs, and other Christians prior to, during, and after the Armenian 
Genocide era, would represent a meaningful move by the Turkish 
Government toward accepting its responsibility for a truthful and just 
resolution of this still unpunished crime against humanity. It would, 
as well, mark progress for the cause of international religious 
freedom, in a corner of the world sadly known not for its pluralism, 
but rather for the depths of its intolerance.
    Ending Turkey's denials can contribute to the reversal of this 
destruction, the return of churches, the restoration of Christian 
heritage, and the re-emergence of the Christian faithful upon these 
sacred lands.
    It is time for the United States and the rest of the world to stand 
up to Turkey's shameless blackmail and demand justice not just for the 
Armenians, but for all of civilized mankind.
    Thank you.

    Kenneth V. Hachikian grew up in Boston, Massachusetts, as a second 
generation Armenian American. He graduated from Harvard College with a 
BA in Economics, cum laude, in 1971 and received an MBA from Harvard 
Business School with High Distinction in 1973.
    Ken started his career with The Boston Consulting Group, where he 
consulted for Fortune 1000 companies from 1973-1982. For twenty years, 
he was the CEO of several businesses including equipment leasing, 
health care services, computer services, and light manufacturing. He 
has also been the primary principal for a boutique venture capital 
fund. Presently, he is a financial advisor/investment banker to 
business owners. He has been involved in over 80 industries and has 
been a principal in over 25 investment banking transactions.
    Ken has consistently been active in the Armenian American 
community, having held a number of leadership positions including being 
on the Board of Trustees for his local church and being chairman of The 
Friends of Armenian Culture Society. In May 2001, he began his service 
as the Chairman of the Armenian National Committee of America, 
headquartered in Washington DC, the largest grassroots Armenian 
American advocacy organization in the United States with over 40 local 
ANCs and thousands of volunteers across the country.

                 Prepared Statement of Van Z. Krikorian

    As painful as every April 24th is for those of us whose families 
were decimated during the Armenian Genocide to reflect on our losses, 
we are grateful to leaders like Chairman Chris Smith and institutions 
such as the Helsinki Commission for your critical work in support of 
human rights and American values.
    We appreciate your efforts in helping to prevent Azerbaijan from 
solving its ``Armenian issue'' by eliminating the Armenians of Nagorno 
Karabakh, and during the Sumgait and Baku pogroms. We appreciate your 
help to secure Armenia's independence. Your work over the years has 
been inspiring. Your 2005 hearings and work on religious rights in 
Turkey made a difference, and we hope that trend continues with today's 
proceedings. We know from our close work with other human rights 
advocates and victims how much they appreciate your work as well.
    By necessity or nature, Armenians are a resilient people who value 
human rights for all. Here, I also want to pay homage to the Assyrian, 
Greek and other victims of this era in Ottoman Turkey who were 
massacred and driven out as part of the program to create a Turkey only 
for Turks. I also pay homage to the victims of the Holocaust, the 
Cambodian Genocide, Rwanda, Sudan, Bosnia, the Holodomor, and other 
genocides.
    On this 100th anniversary, the annual Armenian Presidential Prize 
on Genocide went to the Armenian women who suffered so brutally and 
were the backbone of the Armenian nation's rebirth--they deserve 
special attention and appreciation this week and forever.
    We are also pleased to announce the opening of the online Armenian 
Genocide Museum of America: www.ArmenianGenocideMuseum.org. It focuses 
on remembrance, education, and genocide prevention, and we were happy 
to be able to share the introductory film with the commission. There 
will be more to come.
    In the late 1800s and in the beginning of the 20th century, the New 
York Times distinguished itself in its detailed reporting of the 
ongoing Genocide. This Tuesday's New York Times had another headline 
that will be remembered: ``White House Acknowledges Armenian Genocide, 
but Avoids the Term.'' Avoiding the term is fatal.
    President Obama has used the Armenian term for the Armenian 
Genocide (``Meds Yeghern''), he has described and condemned all of the 
events which provide a dictionary definition of the Armenian Genocide, 
he has called on Turkey to deal with its past honestly, and he has 
referred back to his prior statements as a Senator explicitly using the 
term Armenian Genocide. But since his election as President, he has 
been misled by false promises and bowed to threats from the worst kind 
of people. This undercuts his own credibility. Worst of all it puts 
more lives at risk as history does repeat itself.
    The record has never been in doubt. To say that people are shocked 
is an overstatement. The news that the Turkish Foreign Minister met 
with Secretary Kerry and National Security Advisor Rice with ISIL on 
the table made everything clear. However, to say that we are deeply 
disappointed is an understatement.
    The truth is we feel pain and sorrow, close to when a loved one is 
lost. We feel pain for the innocent people and civilization that was 
destroyed. We feel sorrow in the knowledge that it will continue unless 
change comes. And like other victim groups, we are more than resilient 
enough to rededicate ourselves to the cause of preventing genocide 
which we have inherited.
    Turning now to the record, let us not forget that on April 22, 
1981, President Ronald Reagan stated ``Like the genocide of the 
Armenians before it and the genocide of the Cambodians which followed 
it--and like too many other such persecutions of too many other 
peoples--the lessons of the Holocaust must never be forgotten.'' 
(Proclamation 4838). President Reagan issued similar statements as 
Governor of California.
    Recognizing that Armenians suffered genocide has indelible roots in 
the legal record. The post-World War I Turkish Government tried and 
convicted the key perpetrators with an indictment for the ``massacre 
and the destruction of the Armenians [which] were the result of the 
decisions by the Central Committee. . . .''
    At the Nuremberg trials, British prosecutor Lord Shawcross cited 
the crime against humanity Armenian precedent as legal grounds to hold 
the Nazis responsible.
    The May 28, 1951 official U.S. ``Written Statement'' filed with the 
International Court of Justice regarding the UN Genocide Convention 
states: ``The practice of genocide has occurred throughout human 
history. The Roman persecution of the Christians, the Turkish massacre 
of the Armenians, the extermination of millions of Jews and Poles by 
the Nazis are outstanding examples of the crime of genocide.''
    Let us also remember Hitler's chilling 1939 quote to his commanders 
urging no mercy. ``Who, after all, speaks today of the annihilation of 
the Armenians.'' This quote is publicly displayed in the U.S. Holocaust 
Memorial Museum in Washington.
    Raphael Lemkin who coined the term genocide repeatedly pointed to 
the Armenian experience as not only a definitive example of the crime 
but also one of the reasons why the crime had to be codified in a 
treaty. Lemkin convinced Turkey to be one of the first signatories to 
the UN Genocide Convention in light of the Armenian Genocide.
    To be clear, the person who invented the term genocide defined it 
by pointing to what happened to the Armenians.
    The International Association of Genocide Scholars has 
unequivocally confirmed the obvious classification of the Armenian 
Genocide as such, and there are no reputable, qualified scholars who 
can seriously dispute it today. ``America and the Armenian Genocide of 
1915'' published in 2000 edited by Jay Winter based on the joint 
Library of Congress, Armenian National Institute (ANI), and U.S. 
Holocaust Memorial Museum conference is a definitive testament to the 
record, as is the 1990 publication of ``The Armenian Genocide in the 
U.S. Archives 1915-1918.''
    In a 1989 Senate Judiciary Committee hearing, a question was raised 
about 69 scholars allegedly questioning the Armenian Genocide--then 
Chairman Joe Biden characterized them as idiots. In fact, some of the 
signatories never consented to inclusion of their names, many had no 
expertise in the area, and others were either paid or threatened by the 
then Turkish Government to lend their names--calling them idiots was 
charitable.
    Then how did denial start and how did it last as long as it has?
    The answer is simple--successive Turkish governments have used the 
issue to instill fear, promote racism, distract their population from 
the truth, and avoid progress. Having re-written their own history, 
they are now afraid to tell the truth as they will lose votes and risk 
power.
    Tragically, this pattern has found accomplices, as Turkish leaders 
have openly threatened countries which do not deny the Armenian 
Genocide. Those who bend to bullying continue to be bullied. Those who 
bend, do not show honor and backbone. German Chancellor Merkel and the 
Austrian Parliament added their names to the honor roll this week.
    Turkish society is increasingly coming to terms with its past. More 
people in Turkey than ever before are learning their own history and 
even apologizing for it.
    A surprising number of Turks are learning that in fact they descend 
from Armenian women who were stolen from their families and Turkified. 
Many of the hidden or crypto Armenians are openly embracing their 
Armenian roots, and asking the kinds of questions about their identity 
that any person naturally would. Kurdish leaders and the Kurdish 
population have apologized for their role in the Armenian Genocide and 
many of them are actively seeking to make amends. In the last 
presidential campaign in Turkey, one candidate, Selahattin Demirtas, 
actually included Armenian Genocide recognition in his campaign. Honest 
people in Turkey descended from families who witnessed the massacres 
and deportations know what happened, and they are being heard.
    Among the bravest is a journalist, Hasan Cemal, whose grandfather 
was one of the three leaders of the World War I Turkish Government 
responsible for the genocide. Hasan not only apologized for the 
Armenian Genocide but also published a book in Turkish titled ``1915: 
Armenian Genocide'' in honor of his friend, fellow journalist Hrant 
Dink who was publicly assassinated in Istanbul for working toward 
reconciliation by a fanatic anti-Armenian nationalist in 2007--a crime 
that is still unresolved.
    Documentation of the Genocide is overwhelming. There are over 
30,000 pages in the U.S. archives alone. Ambassador Henry Morgenthau's 
cables and reports are chilling. He wrote, ``Deportation and excesses 
against peaceful Armenians are increasing and from harrowing reports of 
eyewitnesses, it appears a campaign of race extermination is underway 
under pretext of reprisal against rebellion'' (July 16, 2015). Consul 
Leslie Davis reported, ``Any doubt that may have been expressed in 
previous reports as to the Government's intentions in sending away the 
Armenians have been removed and any hope that may have been expressed 
as to the possibility of some of them surviving have been destroyed. It 
has been no secret that the plan was to destroy the Armenian race as a 
race are legion and consistent.'' (July 24, 1915).
    As scholars look deeper, the record is only reinforced. Recently, 
the role of another courageous American--Wilfred Post--has been 
uncovered. Thanks to the work of Dr. Rouben Adalian, we know the 
photographs taken in 1915 by Dr. Wilfred Post constitute a unique set 
of pictorial records of the Armenian Genocide, comparable only to those 
taken by Leslie Davis, U.S. Consul in Harput [Kharpert]. The precise 
location of the pictures can be demonstrated through comparison with 
other photographs depicting scenes of Konya. The captions provided by 
Dr. Post leave no room for speculation about the people appearing in 
them.
    It is amply evident from the captions he provided, as well as the 
supporting eyewitness reports which he personally authored, that 
decades prior to Raphael Lemkin's crafting of the definition of 
genocide, Dr. Wilfred Post had grasped the larger scope and nature of 
the state crime being committed. He intuitively documented the aspects 
of genocide as ultimately codified in the United Nations Convention on 
the Prevention and Punishment of Genocide. By recording these 
particular aspects consonant with the definition of genocide, he 
certified that the Ottoman government was committing the acts listed in 
the eventual UN Genocide Convention Article 2 definition: ``any of the 
following acts committed with intent to destroy, in whole or in part, a 
national, ethnical, racial or religious group, as such:

        (a) Killing members of the group;
        (b) Causing serious bodily or mental harm to members of the 
        group;
        (c) Deliberately inflicting on the group conditions of life 
        calculated to bring about its physical destruction in whole or 
        in part;
        (d) Imposing measures intended to prevent births within the 
        group;
        (e) Forcibly transferring children of the group to another 
        group.'' \1\

    \1\  Article 3 of the UN Genocide Convention defines the following 
crimes that are punishable: (a) Genocide; (b) Conspiracy to commit 
genocide; (c) Direct and public incitement to commit genocide; (d) 
Attempt to commit genocide;(e) Complicity in genocide.

    The pictures reached the United States because they were delivered 
to Reverend William Peet, treasurer of the American Bible House in 
Constantinople, who worked closely with the American Embassy to protect 
the interests of the American missions and to guarantee the personal 
safety of the American missionaries once war broke out and relations 
between the United States and Ottoman Turkey became strained, 
particularly over the mistreatment of the Armenian population. The 
pictures were transmitted by Ambassador Henry Morgenthau to the 
Department of State, through diplomatic pouch, confirming that the 
ambassador, and his staff, were aware of what happened, and were fully 
advised of the conditions under which the Armenian people were 
perishing across the Ottoman Empire. Subsequently, along with 
Department of State records, Dr. Post's photographs were deposited at 
the United States National Archives.
    Dr. Post, along with Dr. William Dodd, and Miss Emma Cushman, ran 
the American Hospital in Konya. Along with the educational 
establishments, the medical facilities created by American 
missionaries, most associated with the American Board of Commissioners 
for Foreign Missions (ABCFM), constituted part of an extensive 
missionary network grown through the course of a century and guided by 
professionals, both men and women, who graduated from notable 
institutions of higher learning in the United States, including Mt. 
Holyoke, Oberlin, Princeton, Yale, and Harvard.
    It is amply evident from the captions he provided, as well as the 
supporting eyewitness reports which he personally authored, that 
decades prior to Raphael Lemkin's crafting of the definition of 
genocide, Dr. Wilfred Post had grasped the larger scope and nature of 
the state crime being committed. He intuitively documented the aspects 
of genocide as ultimately codified in the United Nations Convention on 
the Prevention and Punishment of Genocide.
    The pictures reached the United States because they were delivered 
to Reverend William Peet, treasurer of the American Bible House in 
Constantinople, who worked closely with the American Embassy. Dr. 
Post's photographs were deposited at the United States National 
Archives.
    Congress chartered the Near East Relief, which also reflects a 
monumental chapter in U.S. history. Its archives are also compelling.
    Exemplary figures in the United States diplomatic service whose 
conscientious reporting remains a permanent testament to the horrors of 
the Armenian Genocide include Jesse B. Jackson, U.S. Consul in Aleppo; 
Leslie A. Davis, U.S. Consul in Harput (Kharpert); Oscar Heizer, U.S. 
Consul in Trebizond; George Horton, Consul General in Smyrna; and in 
Constantinople, Gabriel Bie Ravndal, Consul-General, Philip Hoffman, 
Charge d'Affaires, Abraham I. Elkus, Ambassador, and Henry Morgenthau, 
Ambassador.
    Bowing to pressure on the U.S. record concerning the Genocide is 
not what these brave people could ever foresee. They were heroes.
    We are honored that so many members of the Morgenthau family are in 
Armenia this week to uphold the honor of the Ambassador's service, 
including a two year-old Henry Morgenthau. They represent the best of 
America.
    The archives of France, Britain, the Vatican, Russia, Israel, 
Italy, Austria, Germany, Armenia, and many other holdings also confirm 
the enormity and truth of the murder of the Armenian nation. The German 
archives are particularly telling as Germany was Turkey's wartime ally. 
Other archives include captured Turkish records.
    When the facts of the Genocide emerged, on May 24, 1915, France, 
Great Britain and Russia jointly declared ``In view of those new crimes 
of Turkey against humanity and civilization, the allied governments 
announce publicly to the Sublime-Porte that they will hold personally 
responsible [for] these crimes all members of the Ottoman government 
and those of their agents who are implicated in such massacres.'' That 
1915 use of the term crime against humanity was a breakthrough in 
international human rights law.
    For decades, Turkish officials have sworn they are opening or have 
opened their archives. This disingenuous claim is a denial tactic aimed 
at obscuring the truth and avoiding recognition. Putting aside 
Wikileaks disclosures of diplomatic records confirming the years of 
obvious culling of the Ottoman Turkish archives, the archives holding 
all the trial exhibits from the post war Istanbul trials establishing 
the pre-mediated murder of a nation have never been made available. We 
know they existed; they were reported in the judicial decisions, and we 
know they substantiate the charges. We have called for their release 
for decades now; obviously, the only reason why they have not been 
released is that they further prove the crime.
    In 2015, those who deny the Armenian Genocide have as much 
credibility as flat earthers. But they are funded and still remain 
quite dangerous; the consequences of their behavior cost lives.
    In 2005, under the guise of a First Amendment case, the last 
vestiges of deniers filed a federal lawsuit in Massachusetts hoping to 
undermine the teaching of the Armenian Genocide in public schools by 
inserting genocide denial literature in the state curriculum. They 
contrived a ridiculous new term--``contra genocide scholarship''--and 
demanded their curriculum be included in teaching materials.
    In a unanimous 2010 opinion (written by retired Associate Justice 
of the Supreme Court David Souter, sitting on a three judge panel 
including Michael Boudin and Jeffery R. Howard) the United States Court 
of Appeals for the First Circuit in the Commonwealth of Massachusetts 
affirmed the decision of the District Court dismissing Griswold v. 
Driscoll. Today, forty four states mandate teaching or recognize the 
Armenian Genocide, with curricular materials that stand the test and 
have been vetted by scholars. \2\
---------------------------------------------------------------------------
    \2\  The 2012 9th Circuit case Movsesian, et al. v. Victoria 
Versicherung AG shows what happens if a President is not clear and 
consistent though. There the court did not apply a California state 
statute allowing payment on genocide era policies because of a mistaken 
reading of the U.S. record. Thankfully, President Obama's April 24, 
2013 Remembrance Day statement corrected that misreading.
---------------------------------------------------------------------------
    Before I go on, I want to observe that we all know President Obama 
is going to be quoted extensively on the Armenian Genocide this week. 
The Pope's April 12 statements acknowledged the Armenian Genocide and 
called on other countries to recognize it. The resolution of the 
European Parliament, Chancellor Merkel's and the Austrian Parliament's 
use of the term Armenian Genocide, and the presence of Presidents 
Hollande of France and Putin of Russia with some 60 foreign delegations 
at the centennial commemorative events in Armenia this week places the 
U.S. record into sharp focus.
    In the coming days, we will read many times the 2008 Barack Obama 
quote that ``the Armenian Genocide is not an allegation, a personal 
opinion, or a point of view, but rather a widely documented fact 
supported by an overwhelming body of historical evidence. The facts are 
undeniable. An official policy that calls on diplomats to distort the 
historical facts is an untenable policy. . . America deserves a leader 
who speaks truthfully about the Armenian Genocide and responds 
forcefully to all genocides. I intend to be that President.''
    He could not have been more clear on where he stood in 2008. As the 
rest of the world watches, Americans still anticipate his performance 
on that promise.
    But the other eloquent quote I would ask this Commission and others 
to consider now reflects the same sentiment we hold toward the entire 
population of Turkey and Turks around the world--it is from President 
Obama's first inaugural address in 2009: ``we seek a new way forward, 
based on mutual interest and mutual respect. To those leaders around 
the globe who seek to sow conflict, or blame their society's ills on 
the West, know that your people will judge you on what you can build, 
not what you destroy. To those who cling to power through corruption 
and deceit and the silencing of dissent, know that you are on the wrong 
side of history, but that we will extend a hand if you are willing to 
unclench your fist.''
    Today, the president of Turkey shows no respect. He sows conflict. 
He blames society's ills on the West. He is destructive. He is clinging 
to power through deceit. He silences dissent. He is on the wrong side 
of history in denying the Armenian Genocide, and in many other areas.
    Turkey is where our family members' remains are--Armenian 
civilization goes back over 3,000 years there. The graves of those 
innocent victims murdered by a genocidal government are unmarked, their 
homes lost, and their churches and cultural riches ruined. How much 
would it take for President Erdogan to show real respect for those 
losses?
    Instead, he cynically scheduled the commemoration of the battle of 
Gallipoli on April 24, outside of its usual date so as to divert 
countries from participating in the Armenian commemoration. When 
confronted with the obvious ploy, he criticized Armenians for choosing 
April 24 to conflict with his artificial commemoration date.
    We did not choose April 24, 1915--Erdogan's predecessors ordered 
the start of the killing on that date. In fact, Armenian commemoration 
on April 24 after World War I began in Turkey with the permission of 
more sensitive and respectful authorities than apparently exist there 
now.
    The President of Turkey has again recently threatened to expel 
Armenians living in Turkey. Last year he stated that it is ugly to be 
called an Armenian. He conflated Muslim deaths during the war with no 
relation to Armenians with the deaths of Armenian victims, just as 
discredited deniers used to do in the early 1990s to claim mutual 
losses and no victim group.
    In the Turkish city of Kars, an artist created a statue in honor of 
Turkish Armenian Friendship. In 2011, then Prime Minister Erdogan had 
it torn down. Last month, a court found for the artist and ordered now 
President Erdogan to pay roughly $3,800 in damages.
    Turkish Nobel Prize laureate Orhan Pamuk has called Article 301 of 
the Turkish penal code which punishes anti-Turkish statements and has 
been used against him and others for speaking honestly about the 
Armenian Genocide, a ``secret gun'' which is hidden but can be taken 
out whenever the authorities choose to persecute free speech.
    As we gather here today, Turkey is actively aiding Azerbaijan in 
avoiding compliance with the Conventional Forces in Europe arms 
limitations, providing military personnel, and working to debilitate 
Armenia, and wipe out the Armenians living in the Nagorno Karabakh 
Republic. Despite clear treaty obligations from 1921 requiring Turkey 
to grant Armenia free access to the Black Sea, Turkey continues to 
blockade Armenia. Turkey refuses to establish diplomatic relations with 
Armenia and even though Armenia is a member of the World Trade 
Organization, Turkey will not engage.
    As Armenians have before, we are willing to extend a hand if the 
fist on the other side is unclenched.
    Armenia has had three presidents since its independence in 1991. 
All three have supported normalizing relations with Turkey without any 
preconditions. Normalizing does not, however, mean abandoning efforts 
to gain recognition of the Armenian Genocide.
    In 2009, Armenian President Serzh Sargsyan took a bold and 
courageous step with Armenia's signature on Protocols to normalize 
relations with Turkey. After ratification, those agreements would have 
established diplomatic relations, re-opened the border, and established 
mechanisms to review multiple issues between the countries, including 
legal issues that should be resolved.
    The Protocols represented a breakthrough as there was no linkage of 
Turkish-
Armenian relations with Armenian-Azerbaijani relations. With Swiss 
mediation and the foreign ministers of France and Russia as well as the 
U.S. Secretary of State present, the agreements were signed six years 
ago. The diplomatic history revealed that Azerbaijan had been briefed 
in advance and never objected; but after the signing, Azerbaijan vetoed 
Turkey's keeping its commitments and to this day Turkey has not 
fulfilled its obligations.
    With those facts apparent to everyone who can read, earlier this 
month, President Erdogan said with no apparent shame that Turkey's 
``door is still open to Armenia.'' He also continued to misrepresent 
that all historical documents are available and called for a commission 
to study the Genocide.
    Considering the record, Armenian President Sargsyan has a good 
response on the disingenuous commission idea--Turkey seems determined 
to keep asking for commissions until one finally agrees with its 
position.
    I participated from 2001 to 2004 in the Turkish Armenian 
Reconciliation Commission (TARC) chaired by David L. Phillips who is 
now at Columbia University. I found it to be one of the most 
significant endeavors of my life. Our commission was approved by both 
the Turkish and Armenian governments, and our composition included 
former foreign ministers and seasoned individuals who represented 
diverse viewpoints. The Armenian side included Andranik Migranyan, 
Alexander Arzoumanian, and David Hovanissian; the Turkish side included 
Ilter Turkmen, Ozdem Sanberk, Sadi Erguvenc, Gunduz Aktan, Ustun 
Ergruder, and Emin Mahir Balcioglu.
    Our initial task was to last one year and come up with joint 
recommendations to concerned governments if possible. Eventually we 
used a legal process on the Armenian Genocide facilitated by the 
International Center of Transitional Justice (ICTJ) with a hearing on 
the applicability of the UN Genocide Convention to the Armenian 
experience. In 2003, the resulting legal opinion, commonly referred to 
as the ICTJ opinion, declared that all the elements of the legal term 
genocide were established. Ted Sorensen and Alex Borraine were on the 
hearing panel, and the matter was decided on facts that were not in 
dispute.
    If the ruling had gone the other way, there is no doubt that 
deniers would have trumpeted it forever. With that difficult process 
behind us, however, it is time to move forward and not question the 
terminology any more.
    Chairman Smith, I expect, will remember one of the Turkish TARC 
members, Ambassador Gunduz Aktan who appeared before your House 
Subcommittee in 2000 to oppose the Armenian Genocide resolution. He was 
adamant in his denials and threatened retaliation against the U.S. if 
the resolution passed. Chairman Smith responded honorably and 
forcefully in defense of the U.S. He would not succumb to the threats.
    Ambassador Aktan (since deceased) could be an infuriating person, 
and no one would think I or my Armenian colleagues would ever find 
common ground with him. He was the person who most wanted the ICTJ 
legal process though, and he participated in the presentation of the 
Turkish case along with their side's attorneys. (Samantha Power who is 
currently the U.S. Ambassador to the United Nations and author of ``A 
Problem from Hell--America and the Age of Genocide'' was our first 
witness, and I will always be grateful to her for that and more.)
    Ambassador Aktan was not pleased with the result of the process, 
but to his everlasting credit, he made sure the opinion was correctly 
translated into Turkish and published. He did that because he gave his 
word. Compare that to how Turkey signed the Protocols in 2009, 
immediately tried to re-write the deal, and never ratified the terms.
    The TARC process did a lot more than produce the ICTJ opinion of 
course, and shows that Armenians are willing to engage with Turks to 
solve problems. This week, the Project 2015 group has gone to Turkey to 
meet people and participate in the commemorative events there. 
Catalyzed by TARC, civil society contacts and initiatives were started 
that prosper to this day. One of our most useful projects was to ask 
groups of Armenians and Turks what they wanted from each other and more 
importantly what they felt the other side wanted from them. The answers 
surprisingly created more than enough common ground. Eventually, we 
agreed on joint recommendations to concerned governments and terminated 
our activities in 2004.
    So, we have seen fists unclenching and hands opening. And that 
needs to continue.
    For it to continue productively though, the U.S. cannot stand by 
the whitewashing of its own record. Reconciliation cannot fully occur 
without recognition. America does deserve a leader who speaks 
truthfully about the Armenian Genocide and responds forcefully to all 
genocides.
    During our TARC work, one of our more distinguished counterparts 
did not like where we were heading at a particular point and told us 
that Turkey would never act under pressure. He then thought for a 
moment, and said on the other hand Turkey will never act without 
pressure either.
    That lesson needs to be remembered in Washington and in other 
capitals. There are people in Turkey who have very much gone out on a 
limb to help their country come to terms. Whenever the U.S. hedges, it 
is sawing the limb off and discouraging the next person from advancing. 
The consequence is the victory of deceit and a greater likelihood of 
more human rights violations and genocides.
    Ironically, in our case it is also a betrayal of some of the most 
courageous and noble diplomats and public officials to serve the United 
States. The U.S. was neutral at the beginning of World War I and U.S. 
diplomats were able to travel in Turkey and at great risk document and 
photograph the ongoing extermination of the Armenian race and 
civilization.
    After President Reagan issued the 1981 proclamation, the Department 
of State Bulletin publication featured an article in 1982 by Andrew 
Corsun which concluded with a ``Note.'' That ``Note'' stated that 
because the historical record was ambiguous, the Department of State 
did not endorse allegations on the Armenian Genocide. The ``Note'' was 
eventually retracted, and the Federal Courts in the context of a 
Freedom of Information Act case found that U.S. policy historically 
recognized the Armenian Genocide.
    The records released showed that Corsun did not author the 
``Note,'' and in fact the first drafts squarely reflected President 
Reagan's views. But some mystery editor rewrote the document and our 
U.S. history. Congress became more engaged than ever in illuminating 
these issues since 1982, and we need to express our appreciation for 
all of those efforts.
    But, the success in rewriting the State Department ``Note'' 
emboldened the denial industry to believe that history could be 
rewritten. In turn, the practice of threatening the U.S. and spreading 
foreign money to rewrite history grew in the 1980s and 1990s.
    Of course, the record of successive U.S. Presidents in deferring to 
pressure is embarrassing and wrong. Whether it changes because the U.S. 
will no longer be bullied or because the President decides to support 
the forces of reconciliation and progress may not matter. But any 
chance for improvement needs a strong U.S. role as this is an instance 
where leadership is needed. France, Russia, the European Parliament and 
many other countries did not compromise their principled stances. 
Russia, for example, has over $10 billion more in trade with Turkey 
than the U.S. It has recognized the Genocide. Standing on principle 
would also enhance the U.S. position in the region in other ways by 
gaining it a new level of respect and credibility.
    This week, another Turkish foreign minister has been in Washington 
to repeat the same discredited lines about archives and commissions and 
to make threats if the U.S. respects its own record and uses the G-
word. This is the same group that gives a lifeline to ISIL.
    In an article reflecting on the current situation published this 
week, TARC chairman Phillips wrote: ``President Obama referred to the 
Genocide as `Meds Yeghern' in the Armenian language. Obama says `my 
personal views are well-known.' However, the President of the United 
States is not entitled to a personal opinion. He should say `Genocide' 
in this year's Presidential Statement on Remembrance Day. Doing so 
would catalyze greater discussion in Turkish society. It would put the 
United States on the right side of history. Genocide recognition is 
also a legacy issue for Barack Obama.''
    I will conclude with another anecdote. We had another memorable 
commission moment when one of our Turkish colleagues sincerely 
complained that we made them feel terrible by accusing Turks of 
genocide. Former Armenian Foreign Minister Arzoumanian looked up and 
responded ``how do you think it makes us feel to have been actually 
genocided?'' That exchange helped, and we need more of them if we are 
to see justice and restore balance to the lands where our families lie 
in those unmarked graves.
    We understand that no one likes to be branded as a criminal--and we 
are not painting an entire race with that brush at all. We know that 
there were courageous Turks who saved Armenians--like many, my father's 
family was saved that way. At the same time, like most, my maternal 
grandmother's entire family was massacred, and as a young girl she was 
made a slave. My story or something close can be repeated by almost all 
Armenians.
    We think it is fair that Lemkin's word be respected, that our 
inspiring U.S. history be upheld, that treaties are applied, that risk 
takers for good not be cut off at the knees, and that efforts toward 
reconciliation and justice continue based on reality not fiction.
    The lawyer Raphael Lemkin famously asked ``Why is the killing of a 
million a lesser crime than the killing of a single individual?''
    The philosopher George Santayana provided a fitting response: 
``Those who do not remember the past are condemned to repeat it.''
    Thank you again for holding this hearing, and allowing us to give 
voice to those who cannot speak. I am sure they are watching, as we 
remember.

    Van Z. Krikorian serves as Counselor and a member of the Board of 
Trustees of the Armenian Assembly of America (www.aaainc.org). He began 
with the organization in 1977, and has served as Chairman of its Board 
of Directors, and in other positions for over 30 years. He is a trustee 
of the Armenian Genocide Museum of America 
(www.armeniangenocidemuseum.org) and Chairman of its Building and 
Operations Committee. He is also on the Board of the Armenian National 
Institute (www.armenian-genocide.org), and serves in other community 
organizations. His testimony is solely as a representative of the 
Armenian Assembly of America.
    Since January 2007, Mr. Krikorian has worked as Chairman and CEO of 
Global Gold Corporation (www.globalgoldcorp.com). He joined the 
Greenwich, CT based company in 2003. This international gold mining, 
development and exploration company currently has operations in Chile, 
Armenia, and Canada. Previously, Mr. Krikorian was a partner in the New 
York office of Vedder, Price, Kaufman & Kammholz and until 1998 
practiced with Patterson, Belknap, Webb & Tyler. In 2005, he was 
appointed to the International Council of George Washington University, 
and he is an Adjunct Professor of Law at Pace University Law School in 
White Plains, NY.
    In private practice, Mr. Krikorian was an international attorney 
working in project finance, strategic planning, structuring 
investments, negotiating agreements and resolving disputes for 
businesses and non-profits operating overseas, primarily in the former 
Soviet Union, the Middle East and the Caribbean. These projects 
included energy, transportation, agribusiness, banking, government 
regulation, trade, and mining.
    Mr. Krikorian has also initiated several pieces of human rights 
legislation, including Section 907 of the Freedom Support Act and the 
Humanitarian Aid Corridors Act. In the 1993 decision Krikorian v. 
Department of State, the District of Columbia Federal Court of Appeals 
acknowledged that United States policy historically recognized the 
Armenian Genocide.
    Mr. Krikorian is a founding member of the Turkish Armenian 
Reconciliation Commission, which began in 2001 and ended in 2004, and 
was appointed and served as a member of the U.S. delegation to the 
Moscow CSCE meetings of 1991 during the first Bush Administration. In 
1992, he served as Deputy Representative and Counselor to the United 
Nations for the newly independent Republic of Armenia.
    He is a member of the American Bar Association, the Armenian Bar 
Association, the New York Bar, the District of Columbia Bar, and the 
Vermont Bar Association (Professional Responsibility Committee). He is 
also admitted to practice in the United States Court of International 
Trade and the United States Tax Court and has been admitted as an 
Authorized House Counsel in Connecticut.
    Mr. Krikorian received his B.A. in 1981 from George Washington 
University and his J.D. in 1984 from Georgetown University Law Center. 
Following law school, he was a clerk in the United States Federal Court 
for the District of Vermont. In the summer of 1980, he studied at the 
Armenian Seminary in Bikfaya, Lebanon. He resides with his wife, 
Priscilla, who is also an attorney, and their four children in Rye, New 
York.

            Prepared Statement of Dr. Elizabeth H. Prodromou

    Mr. Chairman and Members of the Commission,
    Good afternoon, Mr. Chairman and Members of the Committee. Thank 
you for the invitation to brief you today on the subject of the ongoing 
denial of the Armenian Genocide by the government of Turkey. I 
respectfully request that my written comments, from which I will draw 
for this testimony, be submitted into the Congressional Record.
    Allow me to begin by congratulating the Chair and this Commission 
for the decision to hold this hearing. As a former Commissioner and 
Vice Chair of the United States Commission on International Religious 
Freedom and a current member of the Secretary of State's Working Group 
on Religion and Foreign Policy, I am heartened and encouraged by this 
Commission's recognition of the critical importance of and need for 
Turkey's recognition of the Armenian Genocide, as a first step for the 
possibility of full normalization of Armenia-Turkey relations and as a 
necessary step in ensuring that justice is realized when it comes to 
the events of and reconciliation from the Genocide. Given that this 
Hearing aims to explore ``what the United States and other countries 
can do to help bring about recognition and, eventually, 
reconciliation,'' and given that this hearing also takes into account 
the importance and implications of US recognition of the Armenian 
Genocide for US-Turkey relations, I will focus my remarks on two 
points: first, the architecture of genocide denial and the ideology of 
denialism, because their logic and operation are oftentimes overlooked 
in terms of the pernicious, insidious, corrosive effects on the kinds 
of foundational freedoms to which this Commission is committed to 
protect and uphold and which are enshrined in the Constitution of the 
United States of America, as well as on our foreign policy commitments 
to universal values and rights of freedom and equality; and second, I 
will consider the corrosive, negative effects of genocide denial on 
Turkey's behavior and the deleterious consequences of Turkey's official 
policy of genocide denial for US-Turkey relations and for US soft and 
hard power, values and interests.
    Finally, I will conclude with some brief thoughts about what the 
United States and other countries can do to end Turkey's policy of 
denialism and, therefore, to facilitate a move towards durable, 
sustainable Turkish-Armenian reconciliation.

Architecture of Genocide Denial and Logic of Denialism

    There is overwhelming, comprehensive, and incontrovertible 
evidence, all of which is, in fact, available to this Commission, that 
demonstrates the Ottoman Turkish government's deliberate intention to 
systematically exterminate 1.5 million Armenian Christians--as well as, 
by the way, 1.2-1.5 million Greek and Assyrian Christians--at the start 
of the 20th century. In short, there was intentionality, there was a 
plan, and there was implementation of that plan--unfortunately, with 
tragic efficiency in terms of outcome. Taken together, these three 
elements constitute Genocide: and there are endless eye witness 
accounts, including those by survivors and by US officials at the time 
(US Amb. to the Ottoman Empire, Henry Morgenthau, and US Consul General 
in Smyrna, George Horton, among them); memoirs and papers of Ottoman 
Turkish government perpetrators; and a rich corpus of archival, 
scholarly, and legal research and materials--all of which name the Meds 
Yeghern, the Great Crime, for what it was: the crime of Genocide.
    However, an entire industry has arisen, cutting across government 
and academic and political lobby and media lines, funded by the Turkish 
state and its supporters, that is premised on the denial of those facts 
on the ground (for example, see the work of US Ambassador to the United 
Nations, Samantha Power--A Problem from Hell: America and the Age of 
Genocide). The denial industry has constructed an architecture of 
denial and an ideology of denialism that rests on very simply 
principles and logics: simply, to emphasize ambiguity and lack of 
clarity, to obfuscate, distort, and politicize, the empirical evidence, 
towards a simple goal: to create controversy over the veracity of the 
events that constituted the Armenian Genocide, in order to justify 
indifference on the part of Turkey, and eventually, to uphold the 
Turkish government's unrelenting commitment to denial of the Armenian 
Genocide. The ideology of denialism depends on focusing discussion and 
actions on the controversy, rather than the event--so that the 
controversy, and competing historical interpretations, or interpretive 
differences, are used to delegitimize those who claim that genocide 
occurred. Furthermore, the ideology of genocide depends on using all 
manner of tactics--threats, warnings, demands, retribution, 
punishment--to censor and to silence and to control freedoms of 
conscience, thought, speech, and the press, so that claims of genocide 
are eventually defeated by either focus on the controversy or by 
attrition. Make no mistake: genocide denial is a totalitarian 
enterprise. And, as Peter Balakian (see, for example, his The Burning 
Tigris: The Armenian Genocide and America's Response) has so 
insightfully and compelling pointed out, genocide denial is the 
continuation of genocide; it is what other scholars have called 
memoricide.

Implications for Turkey's Behavior and for US Strategic Interests

    The genocide denial industry has been deployed by Turkey to 
pressure the United States into not recognizing the Armenian Genocide--
to ensure that a Congressional Resolution on the Armenian Genocide is 
not passed and to ensure that no sitting American President speaks 
about the Armenian Genocide with the G word. The working premise of the 
genocide denial approach has long been to warn the United States that 
recognition would lead to the permanent rupture and disrepair of US-
Turkish relations and, therefore, would undermine US strategic 
interests and geostrategic priorities and the capacity of the 
Transatlantic Alliance to execute its strategic operations. (e.g.'s: 
lobbying, campaign financing, ad hominems, closing US out of Incirlik). 
Furthermore, Turkey has used genocide denial to argue that recognition 
by the US would undermine forward movement in Turkey's protracted 
democratization process and weaken what was once referred to as Turkey 
as a ``model for Muslim democracy'' by virtue of being a ``secular 
democracy and NATO ally.''
    In reality, by succumbing to the ideology of denial, US 
policymakers have actually contributed to the emboldening of a politics 
of impunity and a culture of intolerance in Turkey's domestic and 
foreign policy--in other words, to weakening the kinds of values and 
norms that are intrinsic to any rule-of-law democracy; have impeded 
those courageous, principled, and determined groups and individuals in 
civil society inside Turkey who/which have demonstrated a willingness 
and desire to support recognition of the Armenian Genocide; and in the 
process, have weakened America's moral authority, its soft power, and 
ability to protect its strategic interests.
    Taking each point in order, it becomes clear that Turkey's success 
until now in garnering tacit and direct support for genocide denial has 
exerted measurable, negative effects.
    First: concerning the emboldening of the kinds of behaviors 
associated with violence and intolerance, what do we see? Inside 
Turkey, we see the near elimination of any Christian presence today (it 
is worth emphasizing here that genocide includes both the annihilation 
of peoples and the eradication of culture, and Turkey's treatment of 
its Christian citizens includes both of these types of practices). 
Christians in Turkey today comprise less than 1 percent of the total 
population (approximately 25,000 Assyrian Orthodox, 60,000 Armenian 
Orthodox/Apostolic, less than 2,000 Greek Orthodox, and an estimated 
5,000 combined Roman Catholics and Protestants), and their steady and 
precipitous decline over the 20th-century history of the Republic of 
Turkey has been the result of combined policies of violence (pogroms 
and individual attacks, with direct support and indirect complicity of 
Turkish state, particularly as perpetrators are not brought to 
justice), economic disenfranchisement (an arbitrary property rights 
regime of expropriations, coupled with labor rights restrictions), as 
well as a policy of systematic destruction of religious sites and/or 
conversion into mosques (the various Aghia Sophias) and/or conversion 
into buildings intended for other use (e.g. concert halls); the revival 
of terms such as dhimmi (an Ottoman term referring to non-Muslims, 
which implied, theoretically, protected status, but in reality, second-
class status) and gavur (a pejorative ethnic and religious slur used 
against non-Muslims) is part of this. Indeed, the rise and spread of 
crude anti-Semitism (including anti-Semitic language by members of the 
Turkish government, cutting across political party lines, as well as 
the use of anti-Semitic tropes in state media and by President Erdogan, 
with reference to Turkey's Jewish citizenry in connection to Israel) 
has been associated with and consequent to the ideology of denialism 
and failure to acknowledge the Armenian Genocide. Why: because the 
messaging to Turkey has been that there is no accountability for 
discursive and practical actions of violence, intolerance, and bigotry. 
This is critical: acceptance of Turkey's architecture of denial and 
ideology of denialism has signaled, both symbolically and empirically, 
that there are no consequences, no penalties, for continuing to 
complete genocide, through erasing the Christian population and 
cultural presence from the contemporary landscape of Turkey.
    Second: concerning the emboldening similar behaviors in Turkish 
foreign policy, we see some of the most egregious results of Turkey's 
success in getting away with genocide denial. Without a doubt, the most 
chilling case of the consequences of the denialist architecture and 
logic has been Turkey's unfettered, systematic, and near-complete, 
religious cleansing in Turkish-occupied Cyprus. There are less than 
400, mainly elderly, Christians in Turkish-occupied Cyprus after 41 
years of Turkish military occupation in the northern part of the 
island. Additionally, there is documentation of more than 500 churches, 
cemeteries, and cultural sites (Greek and Armenian, as well as Maronite 
and Latin Catholic) and Jewish religious sites and cemeteries, having 
been desecrated, demolished, converted into mosques, stables, public 
toilets, casinos and hotels, and military storage and administration 
sites. Indeed, in one of the most important Armenian monasteries on the 
island, the Turkish occupation regime is now permitting Armenian 
Christians to use that site as a picnic area, but not as a religious 
site--sandwiches are permitted, but religious worship is forbidden. The 
message to Turkey when it comes to the ideology of denialism has had 
clear consequences in their occupation policies in Cyprus: eradication 
of the Christian presence, by eliminating Christians and by erasing the 
cultural footprint of Christian presence stretching more than 2,000 
years. The US and the European Union have enabled Turkey to continue 
what amount to genocidal practices in occupied Cyprus, by failing to 
hold Ankara accountable for its policy of denying the Armenian 
Genocide, and by signaling to Ankara that the ``question of genocide'' 
remains open, emboldening Turkey to continue the same practices in its 
foreign policy.
    Third: Let us consider one of the most critical aspects of the 
architecture of genocide denial and the ways that it has functioned to 
support the argument that goes as follows: it is in the US's strategic 
interest to support continuing democratization in Turkey and, 
therefore, to tread lightly regarding the issue of the Armenian 
Genocide. This argument is, in reality, coded language for US failure 
to recognize the Armenian Genocide and for Washington's failure to push 
Turkey to acknowledge the Armenian Genocide. In fact, the genocide 
denial industry funded by Turkey--in terms of lobbying groups, activist 
organizations, and networks of engagement with US policymakers--has 
been effective in convincing US policymakers until now of supporting a 
proposition (as just outlined) that runs exactly counter to the 
interest of providing traction for democratization in Turkey. Put 
simply, genocide denial has impeded and weakened and undermined 
democratization inside Turkey: some examples will illustrate the 
dynamic at work. Specifically, there is growing, demonstrated evidence 
of a willingness by civil society groups, attorneys, media, and 
intellectuals, inside Turkey to recognize the Armenian Genocide as a 
necessary step towards sustainable reconciliation inside Turkey and 
towards Turkey-Armenia normalization. In this regard, civil society is 
leading in Turkey, and the Turkish state (and this pertains to the 
current government, and certainly, to previous, self-styled, Kemalist 
governments) is blocking, disregarding, undermining these 
democratization currents in civil society, who view discussion and 
recognition of the Armenian Genocide, and more broadly, cleansing of 
the country's Christian communities, as a sine qua non for advances in 
citizenship rights and equality before the law. Indeed, the pervasive 
rollback in media freedoms (press, social media such as Twitter and 
Facebook) underway in Turkey during the Erdogan-Davutoglu period, as 
well as the erosion and violation of speech and conscience freedoms 
(through a more expansive application of Article 301 of the Turkish 
Penal Code, by which ``insulting Turkishness'' also now includes 
Islamist blasphemy dimensions and references to the Armenian Genocide) 
has reached legendary proportions, and is widely reported.
    The perpetuation of Armenian Genocide denial inside Turkey--which 
has resulted in assassinations (Hrant Dink), imprisonment (journalists 
and human rights attorneys), and media closures--relies on the kind of 
totalitarian silencing that has had longterm, corrosive and deleterious 
consequences for Turkish democracy. Again, this dynamic, whereby 
genocide denial feeds authoritarian and totalitarian discourses and 
practices that undermine and distort democratization in Turkey, both in 
civil society and in state institutions, has been a particular problem 
under this last AKP administration, but make no mistake, this is a 
phenomenon that is rooted in the previous Kemalist governments. 
However, in the current case--and with the approaching June 2015 
elections and President Erdogan's objective of obtaining a super-
majority that will allow for an amendment to the Turkish constitution 
in order to move to a muscular, robust presidential system--the stakes 
associated with continued support for the ideology of denialism, and 
will have significant consequences for the short- and long-term pathway 
of Turkish democracy. Simply, aiding and abetting genocide denial has 
been bad for democratization in Turkey, and will produce ever-worse 
outcomes for deepening the country's democratic culture and 
institutions.
    To conclude, in a word, the US, by bowing to Turkish threats and 
warnings and demands around genocide denial--all framed according to 
claims that Washington's recognition of the Armenian Genocide, or use 
of ``the G word'' will lead to a rupture in US-Turkey relations and a 
decline in Turkish democracy--has actually contributed to a 
paradoxical, and measurably negative, outcome. By emboldening Turkey to 
ignore US engagement and suggestions about recognition of the Armenian 
Genocide, the US has messaged Ankara that it has carte blanche to 
violate its international human rights obligations and its NATO 
obligations (e.g. Turkey's UN-sanctions busting vis-a-vis Iran; 
Turkey's selling of Islamic State oil and providing aid and comfort to 
IS fighters along the Turkish-Syrian border; Turkish Government 
members' use of anti-Semitic provocations vis-a-vis Israel and Turkey's 
Jewish citizens; and Turkey's religious cleansing of Christians and 
Christian sites in Turkish-occupied Cyprus, in a manner that is a 
blueprint for the kinds of atrocities now being committed by IS), and 
Washington policymakers have also messaged Ankara that there will be no 
accountability for Turkey when it comes to such violations of 
international law in the country's foreign and domestic policies.
    Taken as a whole, compliance with Turkey's demands and warnings to 
the US regarding denial of the Armenian Genocide is detrimental to the 
US' moral authority and soft power in the world (US statements about 
commitments to international religious freedom, civil and political 
liberties, and other human rights, are rendered irrelevant, at best, 
and hypocritical, at worst, in the face of Washington's unwillingness 
to name the Armenian Genocide, at the least, and more actively, to 
encourage Turkey to do the same). Furthermore, Turkey's dangerous turn 
towards authoritarianism and entitlement only accentuates the zero-sum 
nature of the Euro-American security relationship with Ankara, thereby 
weakening the capacity of the NATO alliance and further prolonging 
Turkey's EU membership negotiations.
    There is, in short, a moral and strategic imperative for the US to 
change its position, rejecting pressures from the mechanisms and 
ideology of Turkey's genocide denial, and embracing unequivocal 
recognition of the Armenian Genocide. Holding Turkey to international 
standards and to the expectations of a US partner and NATO ally makes 
immanent strategic and moral sense: the strength of the bilateral 
relationship and of the Alliance depends on shared values and 
interests.

Some Concluding Suggestions

    By way of brief conclusion, I offer some suggestions for your 
consideration, in response to the question of ``what the United States 
and other countries can do to help bring about Turkey's recognition of 
the Armenian Genocide, gradual reconciliation within Turkish society, 
and, eventually, Turkey-Armenian normalization and reconciliation''--
i.e. the questions put to those of us testifying in this Hearing.
    I offer the following concrete suggestions:

    1. The US should follow the example of the European Parliament and 
of Pope Francis, and officially recognize the Armenian Genocide by 
Ottoman Turkey. Recognition would mean passage of a Congressional 
Resolution, as well as a White House statement that unequivocally names 
the Meds Yeghern as Genocide.

    2. The US should show zero tolerance for Turkey's ideology of 
denialism as a mechanism for silencing free speech and as a form of 
memoricide. This means, as well, ensuring that issues of the protection 
of religious freedom according to universal human rights standards 
should be part of the US's diplomatic dialogue and policy agenda with 
Ankara, particularly with regard to endangered Christian communities 
and the increasingly vulnerable Jewish community inside Turkey.

    3. The US can take concrete steps to empower and enable civil 
society groups inside Turkey--whether media groups, human rights 
organizations, religious freedom groups, and especially, educational 
dialogue and debate--that expands and protects freedom of speech and 
conscience, with regard to the Armenian Genocide and the genocide 
against Christians by Ottoman Turkey, recognizing that strengthening 
freedoms of speech and conscience inside Turkey will invariably enhance 
and improve pluralist democracy in Turkey.

    4. The US should support the creation of Commissions to catalogue, 
preserve, restore, and protect Christian religious sites, artifacts, 
and patrimony in Turkey and Turkish-occupied Cyprus. (The future of 
Aghia Sophia, the Great Byzantine Orthodox Cathedral of the Holy 
Wisdom, in Istanbul, will be a bellwether on how Turkey intends to 
proceed with what, until now, has been deliberate destruction and/or 
misuse of Christian sites in Turkey). The US should take a principled 
stand, in line with international law, that holds Turkey accountable 
for the practice of memoricide, or the ongoing practices of genocide, 
which aim to erase any evidence of the presence of Christians in their 
lands of origin inside Turkey and Turkish-
occupied Cyprus.

    5. The US should think innovatively and creatively about how to use 
the full range of US foreign policy mechanisms--most specifically, the 
US Commission on International Religious Freedom, the International 
Religious Freedom Office at the State Department, the White House 
Office of Global Religious Affairs--to encourage Turkey to recognize 
the Armenian Genocide as the first step to Armenia-Turkey normalization 
and as a means of democracy-deepening in Turkey.

    Thank you, again, to the Chairman and Members of this Commission 
for holding today's Hearing. Your willingness to encourage the United 
States to lead on the issue of recognition of the Armenian Genocide is 
an example that can produce change and reconciliation, and I thank you 
for your efforts and commitment. Thank you for your attention.

    Dr. Elizabeth H. Prodromou is Visiting Associate Professor of 
Conflict Resolution at The Fletcher School for Law & Diplomacy (Tufts 
University), where she teaches in the Program in International 
Negotiation and Conflict Resolution. She is Co-Chair of the Eastern 
Mediterranean and Europe Study Group at Harvard University's CES. 
Before coming to Fletcher, Prodromou served a diplomatic appointment as 
Vice Chair and Commissioner on the U.S. Commission on International 
Religious Freedom (2004-2012); and since 2011, is a member of the U.S. 
Secretary of State's Religion & Foreign Policy Working Group, serving 
on the Subgroup on Religious Freedom, Democracy, and Security in the 
Middle East and North Africa. Her research deals with issues of 
religious freedom, democratization, and security threats, with 
particular focus on comparative religion-political regimes in the Near 
East and on Transatlantic responses to religious radicalism. Published 
widely in scholarly and policy journals and international media, she 
has been involved in research and advisory work for international and 
non-governmental organizations on religious freedom rights. Her current 
research focuses on rights of religious minorities under secularist and 
non-secularist regimes, as well as on strategies of religious 
institutions to state repression and persecution. She holds a Ph.D. and 
an S. M. in political science from MIT. She was awarded a Distinguished 
Service Award by the Tufts University Alumni Association in 2008.

                    Biography of Karine Shnorhokian

    Karine Birazian Shnorhokian was born and raised in Chicago, 
Illinois. Learning first-hand accounts of the Armenian Genocide from 
her family, she became actively involved educating close to 10,000 
students and teachers on this topic. In 2003, she began exhibiting and 
presenting on genocide at the National Council for the Social Studies--
an annual conference attended by thousands of educators in the U.S., 
and further enhancing this by working to pass legislation in Illinois 
on teaching genocide in schools in 2005. In 2009, she was selected as a 
Carl Wilkens Fellow with the Genocide Intervention Network (now I-Act) 
to engage and respond to ongoing issues facing not only Armenia, but 
Sudan, Congo, and Burma. Most recently her involvement with the 
Genocide Education Project, led to the creation of new curriculum on 
the Near East Relief, and America's response. Shnorhokian graduated in 
2004 with a nursing degree from Loyola University of Chicago, and 
currently works as a nurse manager at Holy Name Medical Center in 
Teaneck, NJ.

   ``Remembering the Armenian Genocide,'' by Victor Gaetan, National 
                   Catholic Register, April 14, 2015

    VATICAN CITY -- Pope Francis commemorated the centennial of the 
massacre of Armenians by the Ottoman Empire--``the century's first 
genocide'' in the Pope's words--on Sunday with a solemn Mass at St. 
Peter's Basilica.
    The Holy Father also inscribed St. Gregory of Narek, a 10th-century 
Armenian monk and mystic poet, as the newest doctor of the universal 
Church.
    By honoring martyrs of the Medz Yeghern (Great Crime) together with 
leaders from the Armenian Apostolic Church and Armenian Catholic 
Church, the Holy Father highlights reconciliation--even though his 
actions and words were received negatively by the Turkish government, 
which recalled its Vatican ambassador in protest after the April 12 
commemoration.
    ``The Holy Father was very involved with the Armenian community in 
Buenos Aires,'' New York-based Apostolic Archbishop Khajag Barsamian 
told the Register, the day before leaving for Rome. ``Armenians across 
the world appreciate this Mass.''
    The tragedy being marked through ecumenical unity, though, is a 
grotesque example of human brutality that began on April 24, 1915, in 
Istanbul, when some 200 Armenian elites, ranging from bishops and 
journalists to poets and politicians, were rounded up, arrested and 
killed within a few days. Tens of thousands more were liquidated in the 
following weeks.
    In various guises, extermination continued into 1923. Approximately 
1.5 million Armenians and 1 million Syriac and Greek Christians were 
murdered during this period.
    A triumvirate of Ottoman leaders (known as the ``Three Pashas'' 
from the Young Turks movement), tightly controlling the last vestiges 
of the 600-year-old empire, ordered the systematic murder, deportation 
and expropriation of non-Turkish communities.
    German historian Michael Hesemann described it last month to Zenit 
as the ``greatest persecution of Christians in history.''
    Hesemann based his findings on more than 2,000 pages of unpublished 
documents he discovered in the Vatican Secret Archives, summarized in 
the book Armenian Genocide (Volkermord an den Armeniern) published in 
Germany early this year.

Vatican Spontaneity

    Until February, the commemoration on Sunday was scheduled as an 
Armenian-rite Catholic liturgy celebrated by Catholic Patriarch Nerses 
Bedros XIX, the spiritual leader of Armenian Catholics, who is based in 
Beirut, Lebanon.
    Armenian Catholics represent less than 10% of the global Armenian 
population. More than 90% worship in the Oriental Orthodox tradition, 
which includes the Coptic, Syrian, Armenian, Ethiopian and Malankara 
Churches.
    The Armenian Apostolic Church is considered one of Christianity's 
oldest living faith communities, founded by the apostles Thaddeus and 
Bartholomew.
    According to Archbishop Barsamian, the Vatican only changed its 
plan two months ago, based on Pope Francis' endorsement of a more 
ecumenical event: ``I was in Rome with Cardinal Parolin, Cardinal 
Sandri and Cardinal Koch as part of the dialogue between the Oriental 
Orthodox and Catholic Church'' sponsored by the Pontifical Council for 
Promoting Christian Unity.
    ``I said, `It would be wonderful if [the April 12 Mass] would be a 
pan-Armenian celebration, with the Holy Father celebrating and all the 
Armenian Catholicoi [Church leaders] present.' The Holy Father 
accepted'' this idea.
    Subsequently, the event took on international significance, with 
Armenian President Serzh Sargsyan attending, as well.
    Armenia was the first nation to adopt Christianity, in 301 A.D., as 
a result of St. Gregory the Illuminator's conversion of the king. 
Today, the population of Armenia is 3 million, while more than 10 
million Armenians live across the globe--mainly as a result of the 
diaspora following the 1915 genocide campaign.
    Pope St. John Paul II had a monumental statue of St. Gregory the 
Illuminator installed in the last empty niche of St. Peter's Basilica's 
exterior walls in 2005, just months before he died.
    In fact, the beloved saint traveled to Armenia in 2001 to celebrate 
its 1,700th anniversary of Christianity.
    ``Armenians still talk about Pope John Paul II's visit,'' recalled 
Archbishop Barsamian, a Turkish-born prelate whose family's life was 
directly impacted by the genocide--and whose personal story reflects 
the beautiful mystery of the Holy Spirit, who inspires leaders in 
unlikely circumstances.
Imitating Priests

    Khajag Barsamian was born in 1951 in Arapkir, a historical town 
near the Euphrates River founded by an Armenian king in the 11th 
century when the area was in the Byzantine Empire.
    In 1071, the Ottomans conquered Arapkir, but the Armenian community 
remained and thrived, eventually building a textile industry there. By 
1911, Arapkir's population of 20,000 was split almost evenly between 
Armenian Christians and Muslims.
    With the massacres that began in 1915, virtually the entire 
Armenian community was murdered or deported. Arapkir's seven Armenian 
Apostolic churches, one Catholic church and one Protestant church were 
looted and destroyed.
    The Cathedral of the Holy Mother of God, a major 13th-century 
church that seated 3,000 people, was burned, then repaired and used as 
a school. In 1957, town leaders used dynamite to blow it up.
    Archbishop Barsamian described how the men of Arapkir were taken 
away in 1915 and shot, including his grandfather.
    ``My grandmother was three months pregnant, so my father never met 
his father.'' Some Turkish friends helped Barsamian's grandmother 
survive.
    Only 35 Armenian families remained in Arapkir when Barsamian was a 
child.
    ``Grandmother was very pious. There was no church, but grandmother 
was praying, teaching us how to pray, reading Bible stories--at home 
there was church,'' recalled the archbishop.
    ``Mother said, when I was a little boy, I imitated the actions of a 
priest, although there was no church where I could see this. At age 6, 
we moved to Istanbul, and I started going to daily celebrations, so it 
seems there was this calling [from God] from childhood,'' he said.
    ``Thank God, my parents and the Armenian patriarch in Istanbul 
supported me,'' added Archbishop Barsamian, who began religious studies 
at age 13 and was sent to seminary in Jerusalem at age 16. He was 
ordained a celibate priest at age 20.
    Three years ago, he led a pilgrimage of Armenian-Americans to 
Armenia and Turkey. It was the first time he had returned to Arapkir: 
``The Turkish mayor accepted us very warmly, but of the Armenian 
community, only two Armenian brothers remained,'' Archbishop Barsamian 
said.

Denial

    What makes the entire subject of the Armenian genocide especially 
tense today is the Turkish government's historical refusal to 
acknowledge it happened--although the ``Three Pashas'' who ruled the 
Ottoman Empire during World War I were court-marshaled and condemned to 
death in 1919--20, even though they had already fled the country.
    When Adolph Hitler asked rhetorically, in August 1939, ``Who speaks 
today of the extermination of the Armenians?'' he used indifference 
about the Armenian tragedy as a rationale for his own genocidal 
campaigns.
    Turkish officials today challenge the overall number of Armenians 
killed, saying some 500,000 died in violence related to World War I. 
They defend forced deportations as a necessary wartime strategy.
    Ottoman Turkey had entered World War I in 1914, siding with Germany 
against the Allies, including Russia; most Armenians lived in the 
eastern provinces, closer to Russia, and Ottoman leadership suspected 
the Armenians of supporting the Russian enemy on its border.
    To this day, there are legal disagreements over Armenia that reveal 
a deep antagonism between ``Turkishness'' and the Armenian experience.
    Article 301 of the country's penal code makes it a crime to insult 
the Turkish nation. The law has been used to prosecute people who 
evoked the Armenian genocide, including Nobel Prize winner Orhan Pamuk 
in 2006, although charges were eventually dropped.
    One of the best-known Armenian journalists in Turkey, Hrant Dink, 
was also prosecuted under Article 301 in 2006. He got a six-month 
suspended sentence. A year later, Dink was openly assassinated by a 
Turkish nationalist in Istanbul.
    Last month, the mayor of Ankara, Turkey's capital city, sued a 
journalist for defamation because the journalist called the mayor 
``Armenian.''

Positive Signs

    Close observers, however, see positive signs: Some Turkish citizens 
are increasingly willing to share a sense of guilt that crimes against 
Armenians occurred. To date, it has been those in mainly pro-Kurdish 
regions in Turkey's southeastern part who have spoken out.
    A few important Armenian churches have been restored--including the 
10th-
century Holy Cross Cathedral on the island of Akhtamar and the 13th-
century St. Giragos Armenian Apostolic Church in Diyarbakir, a church 
that had been used as a depot for Armenian goods taken from people 
killed or forced to leave.
    In addition, Turks are increasingly interested in discovering 
Armenian ancestry, rather than concealing it.
    A European Jesuit now serving in Turkey, who prefers not to be 
named, pointed to President Recep Tayyip Erdogan's statement in April 
2014 offering condolences to the Armenian descendants of those who 
died, referring to "shared pain" and ``events that had inhuman 
consequences.''
    The priest considers the president's comments to represent a major 
change in attitude ``that will have a serious impact on public 
opinion.''
    Archbishop Barsamian says he sees positive signs in Turkey, as 
well: ``I'm happy today to see an increase in the number of 
intellectuals who write about it. In bookstores in Istanbul, you find 
books on the genocide. Sometimes you see historians discussing it. Some 
speak in favor and some against, but at least it is an open topic.''

Primary Sources
    One young scholar of the period is Ugur Umit Ungor, a Turkish-born 
historian who grew up in the Netherlands and is a professor at Utrecht 
University. His award-winning book ``The Making of Modern Turkey: 
Nation and State in Eastern Anatolia, 1913-50'' (Oxford University 
Press, 2011) is a micro-history of how the Armenian genocide defined 
the emergence of the modern Turkish state.
    He also explores why the Turkish Government continues a ``denial 
policy'' to this day.
    Ungor explains that the systematic destruction of Armenian 
churches--for example, dynamiting the cathedral in Arapkir even when 
the Armenians had already been banished--together with destroying 
Armenian books and forensic evidence was an attempt to destroy memory 
itself.
    Ungor says the Turkish Government wanted to create the illusion 
that Armenians did not exist because there's no longer physical 
evidence of their presence, but, Ungor points out, real people 
remember.
    Working in the Vatican Secret (meaning ``private'' in Latin) 
Archives, German historian Michael Hesemann discovered a cache of 
unpublished documents related to the Armenian genocide providing 
multiple perspectives on the horrible reality of the event.
    For one thing, Hesemann believes the documents demonstrate that the 
genocide targeted Christians. After the Armenian population, the Turks 
moved on to exterminate some 1 million Syrian and Greek Christians.
    He points out that women who agreed to convert to Islam were 
allowed to live. They married Muslim men and concealed their 
identities, but many remained ``crypto'' Christians.
    Hesemann also traces efforts by the Catholic Church, including Pope 
Benedict XV, to intervene in order to stop the killing.
    Meanwhile, President Woodrow Wilson's ambassador to the Ottoman 
Empire, Henry Morgenthau, recommended the U.S. Government not take 
action vis-a-vis the Ottoman rulers, although he confirmed mass murder.
    In July 1915, Morgenthau wrote, ``Deportations of and excesses 
against peaceful Armenians are increasing, and from harrowing reports 
of eyewitnesses, it appears that a campaign of race extermination is in 
progress under a pretext of reprisal against rebellion.''
    He continued, ``Protests as well as threats are unavailing and 
probably incite the Ottoman government to more drastic measures . . . I 
believe nothing short of factual force, which, obviously, the United 
States is not in a position to exert, would adequately meet the 
situation.''

History Repeating Itself

    While reading firsthand accounts of the Armenian genocide, Hesemann 
found the gruesome nature of the crimes hard to believe.
    ``Honestly, when I originally read the eyewitness reports by 
Catholic priests, Franciscan and Capuchin fathers and the Armenian 
Catholic clergy and patriarchate, I feared that they might include some 
exaggerations. I just could not imagine that such a brutality was 
possible in the 20th century,'' the historian shared with the Register 
by email.
    ``There were reports of crucifixions and the slaughter of humans 
`just like you slaughter a lamb in a religious sacrifice,' as one 
report states, or soldiers piercing bayonets into the wombs of pregnant 
women,'' he added. So many Armenian bodies were thrown into the 
Euphrates River, it ran red with blood for days.
    ``Only when I saw reports on the brutality of the Islamic State in 
northern Iraq and Syria I realized how realistic those [earlier] 
reports were and that history repeats itself in our times,'' wrote 
Hesemann.
    Last November, Islamic radicals blew up a great Armenian church in 
Deir el-Zor, burning thousands of original records related to the 
genocide of 1915 and displacing the remains of hundreds of victims who 
had been entombed in the crypt.
    Deir el-Zor was one of the locations where hundreds of thousands of 
Armenians died of starvation and typhoid after being forced to walk 
there, from Turkey, on forced death marches.
    Hesemann warned, ``Now, in our times, again Christians are 
slaughtered in this very same region. And what do we do to stop those 
massacres and atrocities? Certainly not enough! Future generations will 
rightly blame us and make us responsible for every drop of Christian 
blood spilled there right now.''
    To Christians, Archbishop Barsamian urges, ``Let's hope and pray 
that positive signs grow, because this will help bring reconciliation 
and peace. Our prayer, our wish, is: Yes we are different, but we have 
to respect each other, and that is God's will.''

Victor Gaetan writes from Washington. He is a contributor to Foreign 
Affairs magazine.

                                 <all>


  

                                     
                 This is an official publication of the
                       Commission on Security and
                         Cooperation in Europe.

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                This publication is intended to document
                developments and trends in participating
                States of the Organization for Security
                   and Cooperation in Europe (OSCE).

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

               All Commission publications may be freely
               reproduced, in any form, with appropriate
                   credit. The Commission encourages
                   the widest possible dissemination
                          of its publications.

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                 http://www.csce.gov     @HelsinkiComm

                   The Commission's Web site provides
                  access to the latest press releases
                  and reports, as well as hearings and
              briefings. Using the Commission's electronic
                 subscription service, readers are able
                  to receive press releases, articles,
               and other materials by topic or countries
                        of particular interest.

                        Please subscribe today.
</pre></body></html>
